No. 19In the

Supreme Court of the United States
Sandra Rey and Sergio Madrid,
Petitioners,
v.
Arizona Department of Child Safety,
Respondent.
On Petition for a Writ of Certiorari to the
Arizona Court of A ppeals, Division One

PETITION FOR A WRIT OF CERTIORARI
Kristina B. Reeves
Counsel of Record
Mark Shields
DeeA n Gillespie
GillespieShields
7319 North 16th Street, Suite 100
Phoenix AZ 85020
(602) 870-9700
kreeves@gillaw.com
Counsel for Petitioners
293268

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether, in order to terminate a parent’s parental
rights to their child, the Due Process Clause of the United
States constitution requires that a State must allege and
prove, by clear and convincing evidence, that a parent is
unfit?

ii
PARTIES TO THE PROCEEDING
Petitioners are Sandra Rey and Sergio Madrid.
Respondent is the Arizona Department of Child Safety.
No party is a corporation.

iii
STATEMENT OF RELATED CASES
• In the Matter of: M.R., F1000131, DOB: 8/13/2008;
F.M., Fl 117404, DOB: 3/21/2015; J.M., F1118162,
DOB: 3/11/2017. Case Nos: JD20586, JS19097,
Superior Court of Arizona, Maricopa County.
Judgment entered April 23, 2018.
• Sandra R, Sergio C. v. Department of Child
Safety, M.R., F.M., J.M., No. 1 CA-JV 18-0147,
Arizona Court of Appeals, Division One. Judgment
entered January 29, 2019.
• Sandra R, Sergio C. v. Department of Child
Safety, M.R., F.M., J.M., No. CV-19-0057 PR,
Arizona Supreme Court. Judgment pending.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTIT U TIONAL A N D STAT U TORY
	PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A.	Factual background.  . . . . . . . . . . . . . . . . . . . . . . . 2
B.	Trial court proceedings. . . . . . . . . . . . . . . . . . . . . 4
C.	Appellate court proceedings. . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . . 7

v
Table of Contents
Page
A.	The states are irreconcilably split on
whether the federal constitution requires a
state to prove that a parent is unfit in order
to involuntarily terminate parental rights . . . . . 9
B.	The states are irreconcilably split on what
the federal constitution requires a state
to prove in order for the state to prove
that a parent is unfit . . . . . . . . . . . . . . . . . . . . . . . 14
1. 	The states have reached different
conclusions as to what the state
must prove in order to satisfy the
element that a finding of parental
unfitness is necessary to protect the
parent’s child from harm . . . . . . . . . . . . . . . 19
2. 	To prove parental unfitness, the
State must prove that termination of
parental rights is the least restrictive
means of protecting the parent’s
child from harm . . . . . . . . . . . . . . . . . . . . . . 22
3. 	To prove parental unfitness, the
State must prove that the
g rou nds for t er m i nat ion i s not
over-inclusive  . . . . . . . . . . . . . . . . . . . . . . . . 25
a. 	The State did not prove that
Mother had abused J.M.; the
State did not prove that Father
had abused J.M . . . . . . . . . . . . . . . . . . . 26

vi
Table of Contents
Page
b. 	The State did not prove that
Mother was unfit; the State did not
prove that Father was unfit . . . . . . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF ARIZONA COURT
OF APPEALS, DIVISION ONE, FILED
JANUARY 29, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE SUPERIOR
COURT OF ARIZONA, MARICOPA COUNTY,
	FILED MARCH 23, 2018 . . . . . . . . . . . . . . . . . . . . . 20a
APPENDIX C — ORDER OF THE SUPREME
COURT OF THE STATE OF ARIZONA,
	DATED AUGUST 28, 2019 . . . . . . . . . . . . . . . . . . . . 46a
APPENDIX D — RELEVANT STATUTORY
	PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
A.M. v. A.C.,
296 P.3d 1026 (Colo. 2013) . . . . . . . . . . . . . . . . . . . . . . 23
ACLU v. Mukasey,
534 F.3d 181 (3d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 25
Adoption of Virgil,
102 N.E.3d 1009 (Mass. App. 2018) . . . . . . . . . . . . . . 11
Alma S. v. Dep’t of Child Safety,
425 P.3d 1089 (Ariz. 2018)  . . . . . . . . . . . . . . . . . passim
Austin v. Mich. Chamber of Commerce,
494 U.S. 652 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
B.C. v. Dep’t of Children & Families,
887 So. 2d 1046 (Fla. 2004) . . . . . . . . . . . . . . . . . . . . . 20
Bernal v. Fainter,
467 U.S. 216 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Brown v. Entm’t Merchants Ass’n,
564 U.S. 786 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Cavazos v. Smith,
565 U.S. 1 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Chism v. Bright,
152 So. 3d 318 (Miss. 2014) . . . . . . . . . . . . . . . . . . . . . 16

ix
Cited Authorities
Page
Citizens United v. Fed. Election Comm’n,
558 U.S. 310 (2010)  . . . . . . . . . . . . . . . . . . . . . . 17, 18-19
Copeland v. Todd,
715 S.E.2d 11 (Va. 2011) . . . . . . . . . . . . . . . . . . . . . . . 11
D.N. v. Dep’t of Children & Families,
277 So. 3d 127 (Fla. Dist. Ct. App. 2019) . . . . . . . . . 29
Del Prete v. Thompson,
10 F. Supp. 3d 907 (N.D. Ill. 2014) . . . . . . . . . . . . . . . 30
Fisher v. Univ. of Texas at Austin,
136 S. Ct. 2198 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . .  17
Frisby v. Schultz,
487 U.S. 474 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
In re A.A.,
318 P.3d 1019 (Kan. Ct. App. 2014) . . . . . . . . . . . . . . 29
In re A.B.,
232 P.3d 1104 (Wa. 2010) . . . . . . . . . . . . . . . . . . . . . . . 11
In re Ann S.,
202 P.3d 1089 (Cal. 2009) . . . . . . . . . . . . . . . . . . . . 11-12
In re D.T.,
818 N.E.2d 1214 (Ill. 2004) . . . . . . . . . . . . . . . . . . . . . 12

x
Cited Authorities
Page
In re Desmond F.,
795 N.W.2d 730 (Wis. App. 2019) . . . . . . . . . . . . . . . . 11
In re Guardianship of Jordan,
336 N.J. Super. 270 (App. 2001) . . . . . . . . . . . . . . . . . 20
In re J.J.B.,
894 P.2d 994 (N.M. 1995) . . . . . . . . . . . . . . . . . . . . . . 12
In re J.P.,
648 P.2d 1364 (Utah 1982) . . . . . . . . . . . . . . . . . . . . . 12
In re Kristina L.,
520 A.2d 574 (R.I. 1987) . . . . . . . . . . . . . . . . . . . . . . . 12
In re Rashawn H.,
937 A.2d 177 (Md. 2007) . . . . . . . . . . . . . . . . . . . . . . . 13
In re Scott S.,
775 A.2d 1144 (Me. 2001)  . . . . . . . . . . . . . . . . . . . . . . 12
In re T.S.,
192 A.3d 1080 (Pa. 2018) . . . . . . . . . . . . . . . . . . . . . . . 11
In re Ta.L.,
149 A.3d 1060 (D.C. 2016) . . . . . . . . . . . . . . . . . . . . . . 11
In re Welfare of A. P. S.,
No. A10-2159, 2011 WL 2119418
(Minn. Ct. App. May 31, 2011) . . . . . . . . . . . . . . . . . . 29

xi
Cited Authorities
Page
In re Welfare of Child of R.D.L.,
853 N.W.2d 127 (Minn. 2014) . . . . . . . . . . . . . . 15-16, 17
Kenneth C. v. Lacie H.,
839 N.W.2d 305 (Neb. 2013) . . . . . . . . . . . . . . . . . . . . 11
Kenyon v. Hammer,
142 Ariz. 69 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Lassiter v. Department of Social Services,
452 U.S. 18 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Matter of Dependency of M.A.F.S.,
421 P.3d 482 (Wash. App. 2018) . . . . . . . . . . . . . .  17, 19
Meyer v. Nebraska,
262 U.S. 390 (1923) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
New Jersey Div. of Child Prot. & Permanency v.
C.J.R.,
175 A.3d 200 (N.J. App. 2017)  . . . . . . . . . . . . . . . . . . 13
New Jersey Div. of Youth & Family Servs. v.
A.M.H.,
2009 WL 1181606
(N.J. Super. Ct. App. Div., May 5, 2009)  . . . . . . . . . 31
New York v. Bailey,
999 N.Y.S.2d 713
(N.Y. Monroe Cnty. Ct., Dec. 16, 2014) . . . . . . . . . . . 30

xii
Cited Authorities
Page
Obergefell v. Hodges,
135 S. Ct. 2584 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 33
Padgett v. Dep’t of Health & Rehab. Services,
577 So. 2d 565 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
People in the Interest of A.M.D.,
648 P.2d 625 (Colo. 1982)  . . . . . . . . . . . . . . . . . . .  12-13
Quilloin v. Walcott,
434 U.S. 246 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . 9, 13
Regents of Univ. of California v. Bakke,
438 U.S. 265 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
S.M. v. Florida Dept. of Children & Families,
202 So. 3d 769 (Fla. 2016) . . . . . . . . . . . . . . . . . . . . . . 23
Santosky v. Kramer,
455 U.S. 745 (1982)  . . . . . . . . . . . . . . . . . . . . . . . passim
Stanley v. Illinois,
405 U.S. 645 (1972) . . . . . . . . . . . . . . . . . . . . . . .  7, 9, 18
State Dept. of Human Res. v. A.K.,
851 So. 2d 1 (Ala. App. 2002) . . . . . . . . . . . . . . . . . . . 22
State ex rel. K.G.,
841 So. 2d 759 (La. 2003) . . . . . . . . . . . . . . . . . . . . . . 29

xiii
Cited Authorities
Page
State in Interest of A.M.,
280 P.3d 422 (Utah 2012) . . . . . . . . . . . . . . . . . . . . . . 26
State v. Edmunds,
746 N.W.2d 590 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . 30
TR v. Washakie County Dept. of Public
Assistance and Social Services,
736 P.2d 712 (Wy. 1987)  . . . . . . . . . . . . . . . . . . . . . . .  17
Troxel v. Granville,
530 U.S. 57 (2000) . . . . . . . . . . . . . . . . . . . .  7, 14, 15, 32
Tyrone W. v. Superior Court,
151 Cal. App. 4th 839 (2007)  . . . . . . . . . . . . . . . . 27, 28
Washington v. Glucksberg,
521 U.S. 702 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Williams-Yulee v. Florida Bar,
135 S. Ct. 1656 (2015) . . . . . . . . . . . . . . . . . . . . . . . . .  17
Zablocki v. Redhail,
434 U.S. 374 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Statutes
Ala. Code 1975, § 12-15-70(a)  . . . . . . . . . . . . . . . . . . . . . 22
Ariz. R.P. Juv. Ct. 48(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3

xiv
Cited Authorities
Page
Arizona Revised Statute, § 8-533(B)(3) . . . . . . . . . . . . . . 2
N.J.S.A. 30:4C-15.1(a)  . . . . . . . . . . . . . . . . . . . . . . . . 13, 20
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
Black’s Law Dictionary 1279 (10th ed. 2014) . . . . . . . . . 19
RCW 13.34.190(1)(a)(i) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Webster’s Third New International Dictionary 815
(3rd ed. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  28-29
Treatises
De Officiis 57 (W. Miller transl. 1913)  . . . . . . . . . . . . . . 33
Constitutional Provisions
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
Petitioners Sandra Rey and Sergio Madrid (collectively
“Parents”) respectfully petition for a writ of certiorari to
review the judgment of the Arizona Court of Appeals,
Division One.
OPINIONS BELOW
The opinion of the Arizona Court of Appeals, Division
One, (App. 1a-19a), is reported at 246 Ariz. 180, 436 P.3d
503. The decision of the Arizona Supreme Court, (App.
46a-48a), granting review on an issue unrelated to that
raised herein, and denying review as to the issue raised
herein, is not published. The superior court’s order
terminating the parental rights of Parents, (App. 20a-45a),
is not published.
JURISDICTION
The judgment of the Arizona Court of Appeals was
entered on January 29, 2019. The decision of the Arizona
Supreme Court denying review as to the issue raised
herein was entered on August 27, 2019. On October 30,
2019, Justice Kagan extended the time within which to file
a petition for a writ of certiorari to and including January
4, 2020. The jurisdiction of this Court is invoked under
28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment states, in relevant part:
“No state shall … deprive any person of life, liberty, or
property, without due process of law.” U.S. Const. amend,
XIV, § 1.

2
Arizona Revised Statute, § 8-533(B)(3) states, in
relevant part, that “evidence” will be deemed “sufficient
to justify termination of the parent-child relationship
shall include” that: “the parent has neglected or willfully
abused a child. This abuse includes … situations in which
the parent knew or reasonably should have known that a
person was abusing or neglecting a child.”
The full text of the Arizona state statutory provision is
reproduced in the appendix to this petition. App. 49a-53a.
STATEMENT OF THE CASE
This case concerns the State of Arizona’s termination
of the parental rights of Petitioners Sandra Rey (Mother)
and Sergio Madrid (Father) (collectively “Parents”) to
their young daughter, J.M., who was born in March 2017.
A. Factual background.
Sandra R.1 (Mother) and Sergio M. (Father) are the
parents of F.M., born in 2015, and J.M., born in 2017.
On the evening of April 24, 2017, after six-week-old J.M.
finished nursing, she vomited twice. App. 26a. Mother
and Father both became concerned, and assuming J.M
was having a stomach issue, Father went to the store to
buy something that he believed would help J.M. to feel
better. Ibid. While Father was gone, however, Mother
called him, concerned that J.M.’s medical condition had
1. Mother is also the parent of M.R., born in 2008. Since 2013,
Mother and M.R. had lived with Father and Father was helping
Mother to raise M.R. The State terminated Mother’s parental
rights to M.R. in the same underlying proceeding.

3
worsened. Ibid. Father immediately returned home and
Parents took J.M. to an urgent-care center for treatment.
Ibid. Once there, the emergency medical personnel made
Parents wait 40 minutes before evaluating J.M. App. 3a.
Once a doctor did examine J.M., he advised Parents to
take J.M. to the hospital and they immediately did so.
App. 26a.
At the hospital, through medical testing, the doctors
determined that J.M. had a large subdural hemorrhage on
the left side of her brain and a small subdural hemorrhage
on the right side. App. 3a. The doctors performed
emergency neurosurgery. Ibid. After the surgery, Dr.
Melissa Jones, a pediatrician who specialized in “child
abuse pediatrics” evaluated J.M. and opined that J.M.’s
condition was caused by abuse. Ibid. J.M. had no external
injuries indicating abuse, such as bruising, lacerations, or
abrasions. App. 27a.
In Arizona, when the State seeks to take custody
of a child from the parent, the State must file a petition
alleging that the child is dependent. See Ariz. R.P. Juv.
Ct. 48(A). Although there was no other evidence of abuse,
and no evidence that any of Parent’s other children had
been abused, the State immediately took custody of both
of Parent’s children, J.M. and F.M., as well as M.R. App.
3a. On May 9, 2017, the State filed a petition alleging F.M.
and M.R. were dependent, and when J.M. was released
from the hospital on May 25, 2017, the State filed a
petition alleging that J.M. was dependent also. App. 23a.
Both petitions were solely based on the State’s allegation
Mother had abused J.M. and Father failed to protect her
from abuse, or that Father had abused J.M. and Mother
had failed to protect her from abuse, or both Parents had

4
abused J.M. App. 24a. Less than two months later, on July
5, 2017, the State petitioned to terminate Parent’s rights
to their two children as well as Mother’s rights to M.R.,
based on the same allegations in the petition. App. 23a. For
the next seven months, in an effort to keep their children,
Mother and Father completed every service DCS asked
of them. App. 3a-4a. Nonetheless, the State continued to
pursue termination of their parental rights. App. 4a.
B. Trial court proceedings.
In its petition to terminate their parental rights to
all their children, the State alleged that Mother had
abused J.M. and Father had failed to protect J.M. from
the alleged abuse, or, that Father had abused J.M. and
Mother had failed to protect J.M. from the alleged abuse,
or, Father and Mother had both abused J.M. App.3a. The
court conducted a single hearing and jointly considered
the State’s dependency and termination petitions. App.
20a-45a. Over a three-day evidentiary hearing, the State
offered evidence from Dr. Ruth Bristol, J.M.’s pediatric
neurosurgeon, as to the extent of J.M.’s condition. App.
4a. The State also offered the testimony of Dr. Jones, who
opined that J.M.’s condition resulted from non-accidental
trauma and were caused by “acceleration/deceleration
with significant force,” or “shaken-baby.” App. 2a; App 27a.
Parents presented testimony from Dr. Joseph Scheller,
who is a pediatric neurologist with specialties in pediatric
neurology and neuroimaging. App. 4a. Dr. Scheller
testified that in his expert opinion, J.M.’s condition was a
result of an unusual complication from a head injury that
J.M. had sustained during her birth. App. 27-28a. He also
testified that the lack of any external injuries indicated
that J.M. had not been abused. App. 28a.

5
The State did not offer any other evidence to support
their allegation that Mother had abused J.M. The State
did not offer any other evidence to support their allegation
that Father had abused J.M. The State did not offer any
evidence that J.M. had been crying uncontrollably for an
extensive period. The State did not offer any evidence
that Mother had been unusually stressed, or that Father
had been unusually stressed, or that anything unusual
had occurred prior to the alleged abuse. The State did
not offer any evidence that any circumstance existed
which supported their theory that Mother had suddenly
snapped and shaken her baby. The State did not offer any
evidence that any circumstance existed which supported
their theory that Father had suddenly snapped and shaken
his baby. Rather, Mother testified that “nothing out of the
ordinary” had occurred before J.M. became symptomatic.
App. 31a.
The trial court determined that “[e]ach parent either
abused [J.M.], knew that [J.M.] had been abused, or
reasonably should have known that the other parent had
abused [J.M.].” App. 32a (emphasis added). Based on this
determination, the trial court terminated Parent’s rights
to all their children. App. 43a.
C. Appellate court proceedings.
Mother and Father sepa rat ely appea led the
termination orders. On appeal, Mother argued that the
State had failed to present clear and convincing evidence
that she had willfully abused J.M., or that J.M. had
sustained a serious physical injury in a situation where
she knew or reasonably should have known that Father
was abusing J.M. See Mother’s Op. Brief. Likewise,

6
Father argued that the State had failed to present clear
and convincing evidence that he had willfully abused
J.M., or that J.M. had sustained a serious physical injury
in a situation where he knew or reasonably should have
known that Mother was abusing J.M. See Father’s Op.
Brief. In a single opinion, the Arizona Court of Appeals
affirmed the orders terminating Mother’s and Father’s
to all of their children. App. 1a-19a. The court held that
the State had failed to present clear and convincing
evidence that Mother had abused J.M. and that the State
had failed to present clear and convincing evidence that
Father had abused J.M. App 2a. Instead, the court found
that since DCS had established that “Mother and Father
abused or failed to take steps to protect J.M. after the
abuse occurred,” specifically, by getting married and
“remain[ing] committed to each other,” after the abuse
occurred, that “the statutory grounds to terminate”
Mother’s and Father’s parental rights were met. App. 14a
(emphasis added).
Mother and Father filed separate petitions for review
to the Arizona Supreme Court. In her petition for review,
Mother raised two issues, neither of which raised the issue
presented herein. See Mother’s Pet. for Rev. In his petition
for review, Father raised the question presented herein,
specifically: “Whether Arizona’s statutory termination
scheme, and case law suggesting that proof of a ground
alone automatically constitutes a lack of parental fitness,
complies with constitutional due process protections and
the dictates of Santosky v. Kramer?” Father’s Pet. for
Rev. at 4. The Arizona Supreme Court granted Father’s
petition for review as to only the question: “Does it
violate due process to make the nexus finding in the
best-interests inquiry?” App.47a The Arizona Supreme

7
Court granted Mother’s petition for review as to the same
question presented. App. 47a. The questions for which the
Arizona Supreme Court granted review do not address the
question presented herein, nor do the questions relate to
the termination of Mother’s and Father’s parental rights
to J.M. The Arizona Supreme Court denied review as to
the question presented herein.
REASONS FOR GRANTING THE PETITION
“The liberty interest at issue in this case—the
interest of parents in the care, custody, and control of
their children—is perhaps the oldest of the fundamental
liberty interests recognized by” this Court. Troxel v.
Granville, 530 U.S. 57, 65 (2000) (plurality opinion). Nearly
a century ago, in Meyer v. Nebraska, this Court “held
that the ‘liberty’ protected by the Due Process Clause
includes the right of parents to ‘establish a home and
bring up children’.” Id.at 65 (citing Meyer v. Nebraska,
262 U.S. 390, 399, 401 (1923)) Since Meyer, the decisions
of this Court have “made plain beyond the need for
multiple citation that a parent’s desire for and right to
‘the companionship, care, custody and management of his
or her children’ is an important interest that ‘undeniably
warrants deference and, absent a powerful countervailing
interest, protection.’” Lassiter v. Department of Social
Services, 452 U.S. 18, 27 (1981) (quoting Stanley v. Illinois,
405 U.S. 645, 651 (1972)).
As held by this Court, “[w]hen the State initiates
a parental rights termination proceeding, it seeks not
merely to infringe that fundamental liberty interest, but
to end it.” Santosky v. Kramer, 455 U.S. 745, 759 (1982).
“If the State prevails,” in a termination action, “it will have

8
worked a unique kind of deprivation.... A parent’s interest
in the accuracy and justice of the decision to terminate his
or her parental status is, therefore, a commanding one.”
Id. (internal quotations omitted)
In Santosky, this Court held that, under the Due
Process Clause of the federal constitution, before a state
may involuntarily terminate parental rights, the State
must prove its allegations for termination by clear and
convincing evidence. This Court did not explicitly hold,
however, whether the federal constitution requires that
the state must allege and prove that a parent is unfit. This
case calls upon this Court to answer the question left open
in Santosky; whether, in order to involuntarily terminate
a parent’s rights to their child, the Due Process Clause of
the federal constitution requires that the state must allege
and prove that the parent is unfit.
This Court should grant this petition and resolve
the question presented for two reasons. First, although
the vast majority of states have interpreted the federal
constitution to require that the State must allege and
prove that a parent is unfit in order to involuntarily
terminate parental rights, there is a split among the
states. Resolution of the split among the states is urgently
demanded. The question presented has been percolating
through the various state judicial systems for 37 years,
since this Court’s decision in Santosky. Each of the states
have appeared to have reached a resolution that no state
appears inclined to re-evaluate. It is not reasonable that
further percolation would aid this Court in resolving the
question presented.

9
Second, even among those states that have concluded
that the state must allege and prove that a parent is unfit
in order to involuntarily terminate parental rights, in
the absence of guidance from this Court, the states have
reached widely varying opinions on what evidence will
satisfy the constitutional mandate that the state prove
unfitness. Given this disagreement among the states on
the proper interpretation of the federal constitution as
to such an important fundamental right, this Court’s
guidance is urgently needed.
A. The states are irreconcilably split on whether the
federal constitution requires a state to prove that a
parent is unfit in order to involuntarily terminate
parental rights.
Although this Court has not ever specifically held
that the constitution requires that a state must prove
that a parent is unfit in order to involuntarily terminate
parental rights, this Court’s jurisprudence includes ample
language that strongly suggest that such a showing is
constitutionally mandated. For example, in Quilloin v.
Walcott, this Court stated: “We have little doubt that the
Due Process Clause would be offended if a State were to
attempt to force the breakup of a natural family, over the
objections of the parents and their children, without some
showing of unfitness and for the sole reason that to do so
was thought to be in the children’s best interest.” 434 U.S.
246, 255 (1978) (internal quotation marks and brackets
omitted) (emphasis added). Additionally, in Stanley v.
Illinois, this Court established that the essential predicate
to a person’s parental rights is his or her fitness to parent.
See 405 U.S. 645, 651–52 (1972).

10
In Santosky, this Court repeatedly emphasized the
connection between the constitutional right to parent
and parental fitness. First, this Court noted: “Nor is it
clear that the State constitutionally could terminate a
parent’s rights without showing parental unfitness.” 455
U.S. at 760, n.4 (emphasis in original). This Court further
stated that “until the State proves parental unfitness, the
child and his parents share a vital interest in preventing
erroneous termination of their natural relationship.”
Id. at 760. Additionally, this Court observed that the
State’s termination of parental rights, “entails a judicial
determination that the parents are unfit to raise their own
children,” id. at 760 and that “the State registers no gain
[toward] its declared goals when it separates children from
the custody of fit parents,” id. at 767. “Any parens patriae
interest in terminating the natural parents’ rights,” this
Court noted, “arises only at the dispositional phase,
after the parents have been found unfit.” Id. at 767, n.17
(emphasis in original).
Thus, in prior opinions, this Court has strongly
implied that in order to involuntarily terminate parental
rights, not only must the State prove its allegations by
clear and convincing evidence, but the State’s grounds for
termination must equate to an allegation that the parent
is unfit. This Court, however, has not explicitly reached
such a holding. In the absence of such a holding, the states
have arrived at different conclusions as to whether the Due
Process Clause requires that the state prove unfitness in
order to involuntarily terminate parental rights.
The vast majority of states have reached the
conclusion that the Due Process Clause requires that the
state prove unfitness in order to involuntarily terminate

11
parental rights. As stated by the Washington Supreme
Court: “The first question here is whether a parent has
a due process right not to have the State terminate his
or her relationship with a natural child in the absence of
an express or implied finding that he or she, at the time
of trial, is currently unfit to parent the child. According
to the United States Supreme Court, this court, and our
Court of Appeals, the answer is yes.” In re A.B., 232 P.3d
1104, 1109 (Wa. 2010) (en banc) (referencing Santosky,
455 U.S. at 747–48); The vast majority of other states
have reached similar conclusions. See In re Desmond
F., 795 N.W.2d 730, 739 (Wis. App. 2019) (“A court may
not terminate parental rights without first making an
individualized determination that the parent is unfit”);
In re T.S., 192 A.3d 1080, 1091 (Pa. 2018) (holding that in
Santosky, this Court “concluded that clear and convincing
evidence of parental unfitness was constitutionally
necessary”); Adoption of Virgil, 102 N.E.3d 1009, 1013
(Mass. App. 2018) (“In order to terminate a parent’s
rights, the department must first prove and the judge must
find … that the parent is currently unfit...”) In re Ta.L., 149
A.3d 1060, 1081 (D.C. 2016) (citing Santosky and holding
that this Court has “recognized that the fundamental
right of an individual to parent his or her child … may
not be terminated without a predicate determination, by
clear and convincing evidence that the individual is unfit
to parent”); Kenneth C. v. Lacie H., 839 N.W.2d 305, 314
(Neb. 2013) (discussing constitutional constraints and
noting that “there is no clear and convincing evidence that
[appellant father] is presently unfit as a parent”); Copeland
v. Todd, 715 S.E.2d 11, 20 (Va. 2011) (for a terminationof-parental-rights statute “to pass constitutional due
process scrutiny, [it] must provide for consideration of
parental fitness”); In re Ann S., 202 P.3d 1089, 1102

12
(Cal. 2009) (noting that as a matter of constitutional law,
“some showing of unfitness is called for when a custodial
parent faces termination of his or her rights. ... In that
circumstance, there is no dispute that the best interest of
the child would not be a constitutionally sufficient standard
for terminating parental rights.” (internal quotation
marks and citation omitted)); In re D.T., 818 N.E.2d 1214,
1225–27 (Ill. 2004) (explaining that Santosky requires
clear and convincing evidence of parental unfitness, and
that best interests is a separate inquiry); In re Scott
S., 775 A.2d 1144, 1151 (Me. 2001) (holding that a court
seeking to terminate parental rights must consider
parental unfitness before it separately considers the best
interests of the child and noting that this holding “springs
from the mandates of the federal ... constitution”); In re
J.J.B., 894 P.2d 994, 1003–04 (N.M. 1995) (holding that
the statute establishing “abandonment” as a criterion for
the termination of parental rights was constitutional only
because “abandonment of one’s child establishes parental
unfitness”); In re Kristina L., 520 A.2d 574, 579–80 (R.I.
1987) (explaining that the Constitution requires a finding
of unfitness and that “[t]he best interest of the child
outweighs all other considerations once the parents have
been adjudged unfit. In essence, a finding of parental
unfitness is the first necessary step”); In re J.P., 648
P.2d 1364, 1376 (Utah 1982) (determining that the statute
providing for termination of parental rights based on the
best interests of the child alone was “unconstitutional
on its face” and explaining that “[u]nlike the standard
of ‘parental fitness,’ which imposes a high burden on the
state in an adversary proceeding, the standard of ‘best
interest’ of the child provides an open invitation to trample
on individual rights through trendy redefinitions and
administrative or judicial abuse”); People in the Interest

13
of A.M.D., 648 P.2d 625, 640 (Colo. 1982) (citing Santosky
to hold only if “a parent is deemed unfit when tested by
demanding standards … is a parent-child relationship to
be terminated”).
Some states, however, have determined that the state
may, consistent with the federal constitution, involuntarily
terminate a parent’s right to their child without requiring
the State to prove that the parent is unfit. For example,
the Maryland Supreme Court has determined that, in
terminating parental rights, the Constitution requires the
state to show “that the parent is ‘unfit’ or that ‘exceptional
circumstances’ exist” before involuntarily terminating a
parent’s right to their child. In re Rashawn H., 937 A.2d
177, 188 (Md. 2007) (emphasis added). In New Jersey, the
courts of that state have held that the State may terminate
parental rights “where the parent is unfit or the child has
been harmed or placed at risk of harm.” New Jersey Div.
of Child Prot. & Permanency v. C.J.R., 175 A.3d 200, 209
(N.J. App. 2017) (citing N.J.S.A. 30:4C–15.1(a)) (emphasis
added).
As this Court has observed, “[w]hen the State moves
to destroy weakened familial bonds, it must provide the
parents with fundamentally fair procedures.” Santosky,
455 U.S. at 753-54. Parents “faced with forced dissolution
of their parental rights have a … critical need for
procedural protections.” Id. This Court’s observation in
Quilloin, supra is correct. The Due Process Clause is
offended by states continuing to force the breakup of a
natural family over the objections of the parents, without
some showing of unfitness. The fact that some states are
continuing to destroy families without first showing that
the parent is unfit is intolerable. Resolution of the question
justifies this Court’s review.

14
B. The states are irreconcilably split on what the
federal constitution requires a state to prove in
order for the state to prove that a parent is unfit.
Although, as discussed above, this Court has strongly
implied in numerous decisions that a state must prove
that a parent is unfit in order to take a child from his
or her parent, this Court has not yet expressly defined
the term “parental unfitness.” As observed by Justice
Rehnquist, a state scheme that permitted the termination
of parental rights based merely on a finding that “such
action would be in the best interests of the child” would
be unlikely to pass constitutional muster. Santosky, 455
U.S. at 773 (REHNQUIST, J (dissenting)). But what a
state scheme must require in order to pass constitutional
muster remains an open question in this Court. In Troxel,
this Court observed only that parental fitness exists “so
long as a parent adequately cares for his or her children.”
(plurality opinion). This definition is imprecise. Due to the
express lack of a definition of parental unfitness from this
Court, even among those states that have determined that
a state must prove parental unfitness in order to terminate
parental rights, the states have reached widely varying
conclusions as to what this constitutional imperative
entails. This Court has recognized a parent’s rights to
their child as being as essential to the functioning of a
free society as other fundamental rights, such as the right
of persons to speak freely or to exercise their chosen
religion. See Washington v. Glucksberg, 521 U.S. 702, 720
(1997) (“In a long line of cases, [the Supreme Court has]
held that, in addition to the specific freedoms protected
by the Bill of Rights, the ‘liberty’ specially protected by
the Due Process Clause includes the right[] ... to direct

15
the education and upbringing of one’s children”) The
importance of “the interest of parents in a continuation
of the family unit and the raising of their own children …
cannot easily be overstated.” Santosky, 455 U.S. at 787
(REHNQUIST, J (dissenting)) The lack of a definition of
such an essential term as “parental unfitness” to such an
essential right warrants this Court’s review and guidance.
In order to ensure some basic consistency in the protection
of such a fundamental right, this Court’s intervention is
urgently needed.
Although this Court has yet to explicitly hold what
the state must prove in order to prove that a parent is
unfit, this Court’s jurisprudence provides significant
insight into the correct answer. It is well established
that courts must subject state practices that infringe
on fundamental rights to strict-scrutiny analysis. See
Regents of Univ. of California v. Bakke, 438 U.S. 265,
357 (1978) (“a government practice or statute which
restricts ‘fundamental rights’ … is to be subjected to
‘strict scrutiny”)
“When the State initiates a parental rights termination
proceeding, it seeks not merely to infringe [a] fundamental
liberty interest, but to end it.” Santosky, 455 U.S. at 759.
Since the termination of parental rights is a state action
that not only infringes on a fundamental liberty interest,
but seeks to end it, any definition of parental unfitness
must survive strict-scrutiny analysis. 2 See In re Welfare of
2. As noted by Justice Thomas in his concurring opinion,
in Troxel, the opinion of the plurality did not “articulate[] the
appropriate standard of review,” but since the statute implicated
the infringement of a fundamental right, the appropriate standard
was “strict scrutiny.” (THOMAS, J, concurring)

16
Child of R.D.L., 853 N.W.2d 127, 133 (Minn. 2014) (“Because
the right to parent is a fundamental one,” the parental
termination statute is subject “to strict scrutiny”); Chism
v. Bright, 152 So. 3d 318, 322 (Miss. 2014) (“State statutes
providing for the termination of parental rights are subject
to strict scrutiny”)
Application of this Court’s strict-scrutiny analysis
jurisprudence provides an answer to the question of what
the state must prove in order to prove that a parent is unfit
and terminate parental rights. Such an analysis also shows
that while many states have determined that the state
must prove unfitness to involuntarily terminate rights, the
states are woefully inconsistent in their determination of
what the constitution requires in order to prove unfitness.
For example, in Arizona, although the question of the
constitutionality of Arizona’s parental-rights-termination
statutes has been addressed by Arizona’s appellate
courts, those courts have repeatedly failed to apply the
required strict-scrutiny analysis to properly determine if
its statutes are constitutional. Most recently, the Arizona
Supreme Court held that when a severance is contested,
a court must “find, by clear and convincing evidence,
parental unfitness.” Alma S. v. Dep’t of Child Safety,
425 P.3d 1089, 1093 (Ariz. 2018). The Arizona Supreme
Court correctly noted that “if a statutory ground” for
termination was “not synonymous with unfitness, a
contested severance based on such ground would be
constitutionally infirm.” Id. The court, however, never
took the required step of subjecting Arizona’s parentalrights-termination statutes to a strict-scrutiny analysis
to determine if the statutes actually did satisfy the
constitutionally mandated unfitness requirement. Rather,
the court simply held that they did. Thus, in Arizona, no

17
Arizona appellate court has ever properly determined
that Arizona’s parental-rights-termination statutes
demand that the state prove all of the elements of parental
unfitness that the constitution demands.
“Strict scrutiny is a searching examination, and it is
the government that bears the burden to prove” that its
statutes satisfy strict scrutiny. Fisher v. Univ. of Texas at
Austin, 570 U.S. 297, 310 (2013; see also Citizens United v.
Fed. Election Comm’n, 558 U.S. 310, 340 (2010) (Laws that
are “subject to strict scrutiny,” require the Government
to prove that the law “furthers a compelling interest and
is narrowly tailored to achieve that interest”) The burden
the government must bear is a “heavy” one. Fisher v.
Univ. of Texas at Austin, 136 S. Ct. 2198, 2211 (2016)).
The first step of strict-scrutiny analysis is that the
“State must first identify its objective with precision,”
and then determine if “that interest is compelling.”
Williams-Yulee v. Florida Bar, 135 S. Ct. 1656, 1677
(2015). Although the question of the compelling stateinterest furthered by parental-rights-termination statutes
is one that has not been addressed in Arizona, the courts
of other states have addressed the question. Uniformly
those courts have determined that the state interest
furthered by parental-rights-termination statutes is
that of protecting children from harm. See e.g., Matter
of Dependency of M.A.F.S., 421 P.3d 482, 497 (Wash.
App. 2018) (“the compelling interest of the State [is] to
prevent harm to the child from continuation of the parental
relationship”); TR v. Washakie County Dept. of Public
Assistance and Social Services, 736 P.2d 712, 715 (Wy.
1987) (holding same); R.D.L., 853 N.W.2d at 134 (holding
same) These holdings are consistent with this Court’s

18
identification of the parens patriae interest of the State in
terminating parental rights as its interest “in preserving
and promoting the welfare of the child.” Santosky, 455 U.S.
at 766 (1982). As acknowledged by this Court, the State
“has an urgent interest in the welfare of the child.” Id.
Thus, the compelling state interest furthered by parentalrights-termination statutes is its interest in protecting
children from harm.
Although the state interest in protecting children
from harm is a compelling one, in determining the
constitutionality of state action, a court is not only asked
“to evaluate the legitimacy of the state ends.” Stanley, 405
U.S. at 652. To determine constitutionality, a court must
“determine whether the means used to achieve these ends
are constitutionally defensible.” Id.
In order for a state to prove parental unfitness,
this Court’s jurisprudence dictates that there are three
necessary elements that the state must prove. First,
a state must prove that the unfitness determination
“targets and eliminates no more than the exact source of
the ‘evil’ it seeks to remedy.” Frisby v. Schultz, 487 U.S.
474, 485 (1988). Second, the state must show a finding of
unfitness “is necessary to achieve the compelling state
interest.” Kenyon v. Hammer, 142 Ariz. 69, 86-87 (1984)
(citing Bernal v. Fainter, 467 U.S. 216 (1984)). “The
test... for ’necessity’” is that such a finding “furthers
the compelling interest ‘by the least restrictive means
practically available.’” Id. Third, encompassed within
strict-scrutiny analysis is the requirement that the state’s
grounds for termination cannot be over-inclusive. See
Austin v. Mich. Chamber of Commerce, 494 U.S. 652, 666
(1990), overruled on other grounds by Citizens United,

19
558 U.S. at 310. A statute is “over-inclusive” if it “burden[s]
more persons than necessary to cure the problem.” Black’s
Law Dictionary 1279 (10th ed. 2014). Thus, if the State’s
ground for termination would allow for termination when
parents are not unfit, then it is unconstitutionally overinclusive.
1.

The states have reached different conclusions
as to what the state must prove in order to
satisfy the element that a finding of parental
unfitness is necessary to protect the parent’s
child from harm.

The “evil” parental-rights-termination statutes
seek to remedy is harm to children. Numerous states
have recognized the constitutional imperative that their
parental-rights-termination statutes seek to remedy this
“evil,” and go no further. For example, in Washington,
its parental-rights-termination statutes require that,
in every case, the State prove, “by clear, cogent and
convincing evidence,” that “continuation of the parent and
child relationship clearly diminishes the child’s prospects
for early integration into a stable and permanent home.”
M.A.F.S., 421 P.3d at 495 (citing RCW 13.34.190(1)(a)(i)).
Citing this requirement, Washington’s Court of Appeals
has held that Washington’s parental-rights-termination
statutes “ensure” “that the requisite harm to the child is
not merely an abstract concept.” Id. at 496. Washington’s
courts have found that Washington’s parental-rightstermination statutes survive strict-scrutiny analysis
because “the termination statutes require the State to
prove ‘in every instance’ that termination of parental
rights is necessary to prevent harm or the risk of harm
to children.” Id. Similarly, New Jersey’s parental-rights-

20
termination statutes have been held by New Jersey’s
appellate courts to survive strict-scrutiny analysis
because they require the State to prove, by clear and
convincing evidence, in every case, that “[t]ermination of
parental rights will not do more harm than good.” In re
Guardianship of Jordan, 336 N.J. Super. 270, 274 (App.
2001) (citing N.J.S.A. 30:4C-15.1(a)).
In contrast Washington’s and New Jersey’s statutes
that specifically incorporate a requirement that the State
prove by clear and convincing evidence that termination is
necessary to prevent harm to the child, Florida’s current
termination statutes do not incorporate a requirement
that the State prove a risk of significant harm to the child
from reunification. B.C. v. Dep’t of Children & Families,
887 So.2d 1046, 1050 (Fla. 2004). In considering its
statutes, Florida’s Supreme Court has recognized the
constitutional infirmity created by the absence of this
requirement. Id. at 1052. In a decision pre-dating the
current statutes, the court had held that in order to comply
with constitutional requirements, “before parental rights
in a child can be permanently and involuntarily severed,
the state must show by clear and convincing evidence that
reunification with the parent poses a substantial risk of
significant harm to the child.” Padgett v. Dep’t of Health
& Rehab. Services, 577 So. 2d 565, 571 (1991). In order to
preserve the constitutionality of its current statutes, the
Florida Supreme Court held that Florida’s newly amended
statutes “must be read in light of Padgett’s requirement …
that ‘the state must show by clear and convincing evidence
that reunification with the parent poses a substantial risk
of significant harm to the child.’” B.C., 887 So.2d at 1053
(internal citation omitted). Reading the statutes to include
Padgett’s requirement, Florida’s Supreme Court held that
its statutes are constitutional. Id.

21
The courts in Arizona, however, have reached a
different conclusion than the courts of Washington, New
Jersey, and Florida. Arizona’s courts have interpreted
that the federal constitution such that the State is
only required to prove, in the best-interest stage that
occurs only after the court finds that the termination
statute has been satisfied, “how the child will benefit
from severance” or that “the child will be harmed if
severance is denied.” Alma S., 425 P.3d at 1093 Since
this occurs in the best-interest analysis, in Arizona, the
standard is preponderance of the evidence, and not clear
and convincing evidence. Id. Thus, in Arizona, parental
rights may be terminated based merely on a finding,
by a preponderance of the evidence, that a child would
benefit in some way from severance of the parent-child
relationship. Id. It is not required that the State ever prove
that termination is necessary to prevent harm to the child.
Here, the Arizona Court of Appeals affirmed the
termination of Mother’s and Father’s rights to J.M based
on testimony from the child safety department’s case
manager that J.M. was separated from her siblings and
her parents, in a non-familial placement that was not
willing to adopt her, but the case manager had “identified
other potential adoptive placements.” App. 18a. The court
determined that this evidence was sufficient to satisfy
the State’s burden to prove that J.M. would derive some
benefit from having all connections to her natural family,
including her siblings, severed. Such evidence, however,
does not satisfy the state’s constitutionally imposed
burden to prove, by clear and convincing evidence, that
termination is necessary to protect the child from harm.
J.M. was removed from her parents when she was sixweeks old. Termination of Mother’s and Father’s parental

22
rights foreclosed her ability to ever know her parents.
This kind of loss is tremendous. See Santosky, 455 U.S.
at 760–761, n. 11 (describing the foreclosure of a newborn
child’s opportunity to “ever know his natural parents” as
a “los[s] [that] cannot be measured”). This Court’s review
is urgently required to make clear that states cannot
irrevocably end a parent’s fundamental right to the child
based merely on a determination that termination may
provide some minimal benefit to the child.
2.

To prove parental unfitness, the State must
prove that termination of parental rights is
the least restrictive means of protecting the
parent’s child from harm.

“Few forms of state action are both so severe and
so irreversible” as the termination of parental rights.
Santosky, 455 U.S. at 760. Given the severe and irreversible
consequences of the termination of parental rights, some
states have recognized the constitutional imperative of
requiring that, before the State takes the drastic step
of severing the parent-child bond forever, that the State
must prove that no viable alternative to termination exist.
For example, in Alabama, before terminating parental
rights, “the court must examine viable alternatives
to the termination of parental rights.” State Dept. of
Human Res. v. A.K., 851 So. 2d 1, 7 (Ala. App. 2002). By
statute, Alabama law “provides a number of alternatives
to termination, including, without limitation, placement
of the child with a private organization or facility willing
and able to assume the child’s education, care, and
maintenance, and placement of the child with a relative
or other individual found qualified by” the responsible
agency. Id. at 19-20 (MURDOCK, J, dissenting), citing
Ala. Code 1975, § 12-15-71(a)).

23
Florida, however, has reached a different interpretation
of the federal constitution’s requirements. In Florida’s
view “[c]onstitutional principles and case law require
that [the State] demonstrate that some action short of
termination of parental rights could have been undertaken
by the State before filing a petition to terminate the
parent’s right, indicating that termination is the least
restrictive means of protecting the child from harm.”
S.M. v. Florida Dept. of Children & Families, 202 So. 3d
769, 777 (Fla. 2016). Thus, Florida holds that the leastrestrictive means prong “focuses specifically on what
actions were taken by the State before filing a petition
to terminate the parent’s rights.” Id. at 778. To satisfy
this prong in Florida, the State must “prove that before it
file[d] a petition to terminate the parent’s rights, [it] made
a ‘good faith effort to rehabilitate the parent and reunite
the family.’” Id. at 779. Similarly, Colorado’s Supreme
Court has held that “[b]efore terminating the parent-child
relationship, the trial court must consider and eliminate
less drastic alternatives … and the parents must be given
the opportunity to rehabilitate through participation in the
treatment plan.” A.M. v. A.C., 296 P.3d 1026, 1035 (Colo.
2013) (internal citations omitted).
In contrast to the interpretation of these other states,
Arizona’s courts have held that “all that must be proven by
clear and convincing evidence is that the parent engaged
in one of the statutory grounds for termination, which by
itself constitutes a finding of parental fitness.” Alma S.,
425 P.3d at 1097 (BOLICK, J (concurring in the result))
(internal brackets and quotation marks omitted). The
less drastic alternative of the rehabilitation of the parent,
Arizona’s Supreme Court has held, is merely part of the
“totality of the circumstances that a court must consider

24
in a termination proceeding.” Id. (internal quotation marks
omitted). As stated by Justice Bolick, a justice of Arizona’s
Supreme Court, Arizona’s Supreme Court has “err[ed]
significantly by failing to accord proper weight” to the
“central” consideration of the state’s efforts to rehabilitate
the parent and the success of those efforts, by “reducing it
from an essential element in proving unfitness to merely
considering it as one part of the child’s best-interests
determination, where it is subordinate to other priorities.”
Id. As Justice Bolick observed, failing to require the State
to prove, as an element of unfitness, that termination is
the least restrictive method of protecting children by, at a
minimum, requiring the state to prove that it made diligent
efforts to reunify the family and that those efforts were
unsuccessful, “bodes serious ramifications that eviscerate
the parent’s fundamental rights.” Id. This is so because
“[t]he unfitness determination cannot be properly made
without considering the state’s reunification efforts and
the parent’s success in regaining or attaining parenting
skills.” Id.
As Justice Bolick has correctly obser ved, the
conclusion of the Arizona Supreme Court that proof
that terminating parental rights is the least restrictive
means of protecting a child is not an “essential element”
of proving parental unfitness is “at odds” with this Court’s
decision in Santosky. Id. In Santosky, “the statutory
scheme before the court required the state” in order
to prove parental unfitness, to prove “’the intensity of
its agency’s efforts to reunite the family.’” Id. (quoting
Santosky, 455 U.S. at 762.) This court held that “[p]roof
the state’s efforts, combined with proof of the parent’s
failings, both by clear and convincing evidence, “not only
makes termination of parental rights possible; it entails a

25
judicial determination that the parents are unfit to raise
their own children.” Id. (quoting Santosky, 455 U.S. at
760.) In Arizona, “by contrast,” the state is only required
to prove the statutory ground, and is not required to prove
that it made “diligent efforts to reunify the family or that
the parent has failed to remediate the problem.” Id. This
“glaring omission … from a due process prospective,” id.,
is evident in the Arizona Court of Appeals’ decision here.
The Arizona Court of Appeals acknowledged that the
state had “offered Mother and Father services,” and that
Mother and Father participated in services,” but failed
to consider whether the State had proven, by clear and
convincing evidence, that it had been diligent in offering
services, or whether the Mother or Father, or both, had
been so unsuccessful during those seven-months of service
that forever severing their parental rights to their infant
daughter was the least restrictive means of protecting her.
This Court’s review is necessary in order to make clear
what this Court strongly implied in Santosky; that proof
that terminating parental rights is the least restrictive
means of protecting a child is an essential element of
parental unfitness.
3.

To prove parental unfitness, the State must
prove that the grounds for termination is not
over-inclusive.

Assessments of over-inclusivity have long been a part
of a strict-scrutiny analysis. See, e.g., Brown v. Entm’t
Merchants Ass’n, 564 U.S. 786, 804-05 (2011) (holding that
the law at issue failed strict-scrutiny analysis because it
was “vastly” and “seriously overinclusive”); Zablocki v.
Redhail, 434 U.S. 374, 390 (1978) (striking down a law
because it was “substantially overinclusive”). A ground

26
for termination is overly-inclusive if it allows the State to
infringe on constitutional rights more than is necessary
to further the State’s compelling interest in protecting
children. See ACLU v. Mukasey, 534 F.3d 181, 193 (3rd
Cir. 2008) (holding that a statute is over-inclusive if it
infringes on constitutional rights more “than is necessary
to further Congress’ compelling interest”).
Here, A r i zona t er m i nat ed Pa rent s pa rent a l
rights based on a grounds for termination that are
unconstitutionally over-inclusive. In other words, Arizona
terminated Parents’ parental rights based on grounds
that could apply to fit parents.
Parental rights are individual in nature. See Santosky,
455 U.S. at 764 (1982) (noting that “a parental rights
termination proceeding” deprives “an individual” of a
right.) It is entirely possible that the termination of the
rights of one parent may be constitutional, while the
termination of the rights of another is not. See State in
Interest of A.M., 280 P.3d 422, 423 (Utah 2012). Therefore,
the termination of a person’s parental rights must be
evaluated on an individual basis. Thus, the termination
of Mother’s rights and the termination of Father’s rights
must be considered individually.
a.

The State did not prove that Mother had
abused J.M.; the State did not prove that
Father had abused J.M.

A fit parent does not abuse their child. Here, however,
the Arizona Court of Appeals determined that the State
had proven that J.M. had been injured as the result of
abuse, but that “the evidence did not prove which parent

27
abused the child.” App. 2a. In other words, the Arizona
Court of Appeals held that the evidence did not prove that
Mother had abused J.M. The Arizona Court of appeals
held that the evidence did not prove that Father had
abused J.M. Thus, the State did not prove that Mother was
unfit because she had abused J.M. The State also did not
prove that Father was unfit because he had abused J.M.
b.

The State did not prove that Mother was
unfit; the State did not prove that Father
was unfit.

As stated by the California Court of Appeals in
considering a case presenting a similar fact pattern to
that present here:
We do not quarrel with the proposition that
when the child’s injury or injuries were obvious
to the child’s caretakers and they failed to
act, the court is not required to identify which
parent inflicted the abuse by act and which
parent inf licted the abuse by omission or
consent. In such a case, the evidence supports
a conclusion that both parents knew the child
was injured or being abused.
Tyrone W. v. Superior Court, 151 Cal. App. 4th 839, 852
(2007).
Here, however, the allegation that J.M. had been
shaken on one occasion was the only allegation of abuse.
There was no other allegation that J.M. had been abused
at any other time. J.M.’s injuries were not readily visible.
In fact, when Parents took J.M. for medical treatment, the

28
fact that Parents had to wait 40 minutes before being seen
suggests that trained medical personnel did not observe
any serious injury. J.M.’s injuries were only diagnosed
after she was subjected to a series of medical testing.
Here, as in Tyrone W., the child’s “injuries were not visible
and there were no obvious signs of injury.” Id. at 851. Here,
as in Tyrone W., the record contained “no evidence to
support a finding that, if only one parent inflicted serious
physical harm on the child, the other parent knew about
the abuse and either consented to it or failed to act to
prevent it, thus allowing the abuse to continue.” Id. at
852. And here, as there, there was “no evidence either
parent witnessed the other physically abuse or mistreat
the baby.” Id. As held by the California Court of Appeals,
“where there is no evidence to show both parents knew
the child was abused or injured, the court must identify
the parent who inflicted the child’s injuries before” it can
find that either parent is unfit. Id.
The Arizona Court of Appeals did not cite nor discuss
any evidence that indicated that Mother knew or should
have known that J.M. would be abused. Rather, the
Arizona Court of Appeals found that Mother’s rights could
be terminated because, “after [she] knew or reasonably
should have known that J.M. had been abused,” she failed
to protect J.M. App. 13a (emphasis added). Thus, the
court did not determine that Mother knew, or reasonably
should have known, that J.M. would be abused, and failed
to protect her from the abuse that actually occurred, but
rather that after J.M. had been abused, Mother might fail
to protect her from abuse that may occur in the future.
“Failure,” however, is defined as the “omission of
performance of an act or task.” Webster’s Third New

29
International Dictionary 815 (3rd ed. 2002). The term
implies that a person must have the opportunity to perform
a duty or act before he or she can fail to perform. An
individual does not have an opportunity to act if she does
not know that a need exists. Thus, as numerous states have
held, in order for a parent to be deemed unfit for failing
to protect her child from abuse, the State must prove that
she had the knowledge and opportunity to act but failed
to do so. See e.g. D.N. v. Dep’t of Children & Families,
277 So. 3d 127, 131 (Fla. Dist. Ct. App. 2019) (“Florida
courts have declined to terminate the parental rights of
a parent where the facts fail to establish that the parent
was involved in the abuse of a child or knew about the
abuse but failed to prevent it”); In re A.A., 318 P.3d 1019
(Kan. Ct. App. 2014) (unpublished decision) (overturning
of finding of parental unfitness after it determined that
“[t]here was never any direct evidence, much less clear
and convincing evidence, presented at trial that [the
parent] participated in the abuse of [the child] or even
knew about the abuse of [the child].”) State ex rel. K.G.,
841 So. 2d 759, 763–64 (La. 2003) (overturning a finding
of parental unfitness because “the trial court’s finding
was manifestly erroneous as the state failed to prove by
clear and convincing evidence that [the parent] knew of
the abuse but failed to take any action to prevent it.” In
re Welfare of A. P. S., No. A10-2159, 2011 WL 2119418, at
*8 (Minn. Ct. App. May 31, 2011) (unpublished opinion)
(overturning a finding of parental unfitness and holding
“[w]here a parent has not personally inflicted [abuse] on
the child, it is difficult to conceive how …. that harm could
indicate that parent’s lack of regard for the well-being of
the child unless that parent were somehow aware of the
harm and its cause” and the record in that case did “not
support a finding that [the parent] knew or should have
known that” the child was being abused.”)

30
Furthermore, even if, contrary to the finding of every
other state court to have considered the question, Mother
could be deemed to have failed to protect J.M. for actions
she took “after the abuse occurred,” the actions relied
upon by the Arizona Court of Appeals in no rational sense
indicate parental unfitness.
First, the court cited Mother’s action of “continu[ing]
to deny that abusive conduct occurred.” Mother’s
continuing denial that any abuse had occurred, however,
was reasonable. The only incident of alleged abuse was
that J.M. had been shaken on one occasion. The theory of
abuse by “shaken baby” has, in recent years, been soundly
and repeatedly called into question by both legal and
medical experts. Three Justices of this Court have noted
that “[d]oubt has increased in the medical community
‘over whether infants can be fatally injured through
shaking alone.’” Cavazos v. Smith, 565 U.S. 1, 13–14 (2011)
(GINSBURG, J., dissenting) (quoting State v. Edmunds,
746 N.W.2d 590, 596 (2008)). Since 2011, the doubts about
the theory of shaken baby have only increased. See, e.g.,
Del Prete v. Thompson, 10 F. Supp. 3d 907, 957 n.10 (N.D.
Ill. 2014) (noting that “a claim of shaken baby syndrome
is more an article of faith than a proposition of science”);
New York v. Bailey, 999 N.Y.S.2d 713, 726 (N.Y. Monroe
Cnty. Ct. Dec. 16, 2014) (“[A] significant and legitimate
debate in the medical community has developed in the
past 13 years, over whether young children can be fatally
injured by means of shaking[.]”). Dr. Scheller, a pediatric
neurologist—a medical expert— testified that he had
doubts that J.M’s injuries were caused by abuse. The fact
that numerous medical and legal experts have called into
question the occurrence of abuse in circumstances of an
alleged “shaken-baby” and that a medical expert familiar

31
with the specific circumstances of J.M.’s injuries doubted
that abuse occurred, Mother’s denial that abuse occurred
was reasonable, and in no way an indication of her lack of
parental fitness.
The A rizona Court of Appeals also based its
termination of Mother’s parental rights on her decision
to continue her relationship with Father. But this
decision also does not in any way indicate her unfitness
to parent J.M. As noted by a New Jersey appellate court,
“continuation of a relationship with a loved one is not a
basis for interference with a person’s parental rights;
it is the failure to protect a child from harm caused or
threatened by the loved one that provides a basis for such
intrusion.” New Jersey Div. of Youth & Family Servs. v.
A.M.H., 2009 WL 1181606, at *19 (N.J. Super. Ct. App.
Div. May 5, 2009) (unpublished opinion).
The Arizona Court of Appeals based its decision to
affirm the termination of Father’s parental rights on the
same actions it relied upon to affirm the termination of
Mother’s parental rights. As with Mother, the Arizona
Court of Appeals determined that Father failed to protect
J.M. “after the abused occurred,” because he “continued
to deny that abusive conduct occurred, presented a ‘united
front’” with Mother, and Mother and Father “remained
committed to each other and their relationship.” App.
12a-13a (emphasis added). For the same reasons argued
above, Father’s belief that J.M. had not been abused was
not evidence of his lack of parental fitness. Neither was
his decision to continue his relationship with Mother.
Both a fit parent and an unfit parent could have
held the belief that J.M. had not been abused. Both a fit

32
parent and an unfit parent could have chosen to continue
their relationship with their loved one. In affirming the
termination of Mother’s and Father’s parental rights, the
Arizona Court of Appeals determined only whether the
State had satisfied the statutory grounds for termination,
but failed to consider whether the conduct satisfied the
constitutional requirement that the state prove that the
parent cannot “adequately care[] for his or her children,”
Troxel, 530 U.S. at 68 (plurality opinion), i.e., is unfit.
This Court should accept review to make clear that the
constitution requires that for the state to so definitively
and permanently infringe on the fundamental rights of
parents, a state’s statutory grounds for the termination
of parental rights cannot be over-inclusive; they must
be limited to conduct which actually equates to parental
unfitness.

33
CONCLUSION
As this Court has recognized, quoting Cicero: “The
first bond of society is marriage; next, children; and then
the family.” Obergefell v. Hodges, 135 S. Ct. 2584, 2594
(2015) (citing De Officiis 57 (W. Miller transl. 1913)). When
the State permanently severs a parent-child relationship,
it destroys a family. When the State is repeatedly able to
unconstitutionally destroy families, the situation threatens
the basic foundations of our society. The question presented
in this case warrants this Court’s review.
			Respectfully submitted,
Kristina B. Reeves
Counsel of Record
Mark Shields
DeeA n Gillespie
GillespieShields
7319 North 16th Street, Suite 100
Phoenix AZ 85020
(602) 870-9700
kreeves@gillaw.com
Counsel for Petitioners

APPENDIX

1a
Appendix
A OF ARIZONA
APPENDIX A —
OPINION
COURT OF APPEALS, DIVISION ONE,
FILED JANUARY 29, 2019
IN THE ARIZONA COURT OF
APPEALS, DIVISION ONE
No. 1 CA-JV 18-0147
SANDRA R., SERGIO C.,
Appellants,
v.
DEPARTMENT OF CHILD
SAFETY, M.R., F.M., J.M.,
Appellees.
January 29, 2019, Filed
Appeal from the Superior Court in Maricopa County
No. JD20586
JS19097
The Honorable Alison Bachus, Judge
AFFIRMED
OPINION
Judge Paul J. McMurdie delivered the opinion of the
Court, in which Presiding Judge Jennifer B. Campbell
and Judge Kent E. Cattani joined.

2a
Appendix A
McMURDIE, Judge:
¶1
Sandra R. (“Mother”) appeals the termination of
her parental rights to her three children: M.R., born in
2008; F.M., born in 2015; and J.M., born in 2017. Sergio
C. (“Father”) appeals the termination of his rights to
their two children in common, F.M. and J.M.1 We affirm
the termination orders and hold: (1) the court committed
harmless error by allowing the Department of Child
Safety (“DCS”) to introduce statements from scientific
articles without meeting the foundation requirements of
Arizona Rule of Evidence 803(18); (2) sufficient evidence
supports the abuse finding related to the shaken-baby
injury (nonaccidental trauma) even though the evidence
did not prove which parent abused the child; and (3) under
Alma S. v. DCS, 245 Ariz. 146, 425 P.3d 1089 (2018),
the “constitutional nexus” requirement established by
Linda V. v. ADES, 211 Ariz. 76, 117 P.3d 795 (App. 2005),
is considered under the totality of the circumstances in
determining whether termination is in the best interests
of the child.
FACTS AND PROCEDURAL BACKGROUND
¶2
In 2013, Mother and her five-year-old daughter
M.R. began living with Father. Mother subsequently gave
birth to F.M. and J.M. In April 2017, six-week-old J.M.
slept most of the day and vomited “a lot” that evening.
Mother noticed that J.M.’s arms began shaking at various
1. M.R.’s father’s parental rights were terminated in the same
proceeding. He is not a party to this appeal.

3a
Appendix A
times. Assuming it was a stomach issue, Father went to
the store to buy tea for J.M. Meanwhile, J.M.’s condition
worsened. J.M. turned pale, started moaning, could not
fully open her eyes, and her arms became stiff. After
Father returned from the store, Mother and Father
took J.M. to an urgent-care center where they waited
more than 40 minutes for the doctor to evaluate her.
Upon examination, the doctor told Mother and Father
to immediately take J.M. to Phoenix Children’s Hospital
(“PCH”).
¶3
At PCH, a scan revealed that J.M had a large
subdural hemorrhage on the left side of her brain
and a smaller subdural hemorrhage on the right. She
also had damage to her optic nerve and severe retinal
hemorrhaging in both eyes. The hemorrhaging caused
her brain to shift out of position and compress her
brainstem. Because J.M.’s life was in danger, doctors
had to perform emergency neurosurgery. After surgery,
Dr. Melissa Jones, a pediatrician with a specialty in
child abuse pediatrics, evaluated J.M. After ruling out
possible medical causes, Dr. Jones determined the injuries
resulted from abusive head trauma and Mother and Father
provided no alternative explanation for the cause of J.M.’s
injuries. PCH reported the injuries, and DCS took custody
of all three children and filed dependency petitions. The
juvenile court later established the case plan as severance
and adoption.
¶4
In July 2017, DCS petitioned to terminate Mother’s
rights to J.M., F.M., and M.R., and Father’s rights to
J.M. and F.M., under the abuse ground. See Ariz. Rev.
Stat. (“A.R.S.”) § 8-533(B). Over seven months, DCS

4a
Appendix A
offered Mother and Father services, including hair-follicle
testing to rule out drug abuse, psychological evaluations,
individual counseling, and a parent aide during visits with
the children. Although Mother and Father participated in
services, in discussions with counselors, they continued to
minimize J.M.’s severe injuries and provided no further
explanation for how the injury occurred.
¶5
The juvenile court held a three-day termination
hearing. Dr. Jones testified for DCS, opining that J.M.’s
injuries resulted from nonaccidental trauma. Dr. Ruth
Bristol, J.M.’s pediatric neurosurgeon, testified on the
manner and extent of J.M.’s injuries. Mother and Father’s
expert, Dr. Joseph Scheller, a pediatric neurologist with
specialties in pediatric neurology and neuroimaging,
opined that J.M.’s injuries most likely resulted from an
unusual complication of a birth injury. The court took
the matter under advisement and later issued an order
terminating Mother’s rights to J.M., F.M., and M.R.,
and Father’s rights to J.M. and F.M. Mother and Father
timely appealed. We have jurisdiction pursuant to Article
6, Section 9 of the Arizona Constitution and A.R.S.
§§ 8-235(A), 12-120.21(A)(1), and -2101(A)(1).
DISCUSSION
¶6
To terminate a parent-child relationship, the court
must find at least one statutory ground for termination
under A.R.S. § 8-533(B) by clear and convincing evidence.
Kent K. v. Bobby M., 210 Ariz. 279, 284, ¶ 22, 110 P.3d
1013 (2005). The court must also find termination is in the
child’s best interests by a preponderance of the evidence.
Id. We review the court’s termination determination for

5a
Appendix A
an abuse of discretion and will affirm unless no reasonable
evidence supports the court’s findings. Mary Lou C. v.
ADES, 207 Ariz. 43, 47, ¶ 8, 83 P.3d 43 (App. 2004). The
juvenile court “is in the best position to weigh the evidence,
observe the parties, judge the credibility of witnesses, and
resolve disputed facts.” ADES v. Oscar O., 209 Ariz. 332,
334, ¶ 4, 100 P.3d 943 (App. 2004).
A. The Court Committed Harmless Error by Allowing
DCS to Cross-Examine Mother and Father’s Expert
Witness with Publications in His Field Without
Laying Proper Foundation.
¶7
Mother and Father assert that DCS failed to
lay proper foundation for the scientific articles it used
to impeach Mother’s and Father’s expert witness, Dr.
Scheller. Although we agree the court erred by not
requiring DCS to lay the proper foundation for the
publications, we conclude the error was harmless. See
Monica C. v. ADES, 211 Ariz. 89, 94, ¶ 22, 118 P.3d 37 (App.
2005) (harmless error applies in juvenile proceedings).
¶8
This cour t w ill aff ir m the juvenile cour t’s
evidentiary rulings “absent a clear abuse of its discretion
and resulting prejudice.” Lashonda M. v. ADES, 210
Ariz. 77, 82-83, ¶ 19, 107 P.3d 923 (App. 2005). Abuse of
discretion occurs when a court’s decision is “manifestly
unreasonable” or based on “untenable” grounds. Id.
(quoting Quigley v. City Court of Tucson, 132 Ariz. 35,
37, 643 P.2d 738 (1982)).
¶9
Arizona Rule of Evidence 803(18) governs the
admission of hearsay statements from learned treatises,

6a
Appendix A
periodicals, or pamphlets. Rule 803(18) provides that
statements from such publications may be read into
evidence, but not received as an exhibit, if:
(A) the statement is called to the attention of an
expert witness on cross-examination or relied
on by the expert on direct examination; and
(B) the publication is established as a reliable
authority by the expert’s admission or testimony,
by another expert’s testimony, or by judicial
notice.
“The learned treatise exception to the hearsay rule stems
from [the] . . . independent guarantees of trustworthiness
of such works.” Rossell v. Volkswagen of Am., 147 Ariz.
160, 173, 709 P.2d 517 (1985). By requiring the proponent to
elicit an expert’s recognition of the publication’s reliability,
Rule 803(18)(B) provides the proper method to verify the
statement’s trustworthiness. See State v. West, 238 Ariz.
482, 500-501, ¶¶ 68, 70, 362 P.3d 1049 (App. 2015).
¶10
Mother and Father argue DCS failed to lay the
proper foundation before recounting statements from the
scientific articles in the following two instances:
[DCS Counsel:] Okay. In Jones’ study,
he concluded, again, that these are
rare, but cannot be diagnosed unless
nonaccidental head injury had been
questioned thoroughly, do you agree
with that statement?

7a
Appendix A
[Dr. Scheller:] Yes and no. It’s sort of -- it’s
a very complicated statement that he
said. And I’m happy to explain why or
I’ll just say -***
[DCS Counsel:] And you’re familiar with the
Feldman study that was published in
September of 2001?
[Dr. Scheller:] Yes, 2001. Because he’s
published a real lot of studies.
***
[DCS Counsel:] And [Feldman’s] study
found chronic or mixed chronic and
acute subdural hematoma were found
only in abused children in his study,
that’s what he found, correct?
[Dr. Scheller:] Yes.
Mother timely objected to each line of questioning, citing
DCS’s failure to establish that the publications containing
the articles were reliable as required by Rule 803(18)
(B). The court overruled each objection and found Dr.
Scheller’s knowledge of the studies provided adequate
foundation to question him about the contents.

8a
Appendix A
¶11
DCS asserts it was not obligated to follow Rule
803(18)’s foundation requirements during the crossexamination because it “did not seek to admit the articles
into evidence.” We reject this argument. By asking Dr.
Scheller to confirm its paraphrased descriptions of the
articles’ findings, DCS put the truth of the findings
themselves at issue. See Ariz. R. Evid. 801(c) (hearsay
means an out-of-court statement offered to prove the truth
of the matter asserted in the statement); Ariz. R. Evid.
802 (hearsay generally inadmissible); West, 238 Ariz. at
501, ¶ 71 (superior court properly sustained objection to
prosecutor’s reference to the findings of a “great deal of
literature” in scientific journals); Sharman v. Skaggs Cos.,
124 Ariz. 165, 168-69, 602 P.2d 833 (App. 1979) (discussion
of a report’s findings on cross-examination introduced
hearsay statements from report). Thus, before recounting
the articles’ findings, DCS was required to first lay proper
foundation concerning the reliability of the publications
in which those articles appeared, or the reliability of the
studies within the articles. DCS did not lay the required
foundation, and the court erred by overruling Mother’s and
Father’s objections to DCS’s improper cross-examination.
¶12
Although the court should have required DCS to
establish the publications’ reliability before receiving
evidence of the articles’ findings, we nonetheless conclude
that the error was harmless. Dr. Scheller conceded
his familiarity with each authority, was able to answer
DCS’s follow-up questions, and at times challenged DCS’s
attempts to restrict his explanations of the articles’
findings. While Mother and Father take issue with whether
the referenced publications were current and credible,

9a
Appendix A
their respective counsel did not develop these arguments
on redirect examination despite the opportunity to do so.
And although the juvenile court ultimately rejected Dr.
Scheller’s opinion, it based that decision on the testimony
of J.M.’s treating physicians and Dr. Scheller’s concessions
surrounding the cause of J.M.’s injuries, not whether Dr.
Scheller’s opinion was contrary to the weight of published
authority.
B. Sufficient Evidence Supports the Court’s Order
Terminating Mother’s and Father’s Rights Based
on Abuse or Failure to Protect from Abuse.
¶13
Mother and Father argue insufficient evidence
supports the court’s termination order under the abuse
ground. A.R.S. § 8-533(B)(2) provides:
B.
Evidence sufficient to justify the
termination of the parent-child relationship
shall include . . .
***
2.
[t]hat the parent has neglected or
wilfully abused a child. This abuse includes
serious physical or emotional injury or situations
in which the parent knew or reasonably should
have known that a person was abusing or
neglecting a child.
If a parent abuses or neglects their child, the court may
terminate that parent’s rights to their other children

10a
Appendix A
on this basis, even if there is no evidence that the other
children were abused. Linda V., 211 Ariz. at 79, ¶ 14.
¶14
Reasonable evidence supports the court’s finding
that J.M.’s injuries were caused by abuse. While in
Mother and Father’s exclusive care, J.M. suffered a large
subdural hemorrhage on the left side of her brain and
a smaller subdural hemorrhage on the right. She also
had significant midline shift and herniation of her brain,
meaning there was so much pressure in the brain that it
started to shift out of its normal position. J.M. required
emergency neurosurgery to relieve the pressure because
it had become so great that her skull could no longer
contain the brain and its contents without threatening
her life. She also had diffused retinal hemorrhages (or
bleeding) in all quadrants of the retina and all layers of the
retina. Her head injuries negatively affected a multitude
of systems in her body. Post-trauma, doctors diagnosed
her with cerebral palsy because she had significant motor
impairment. She also suffers from regular epileptic
seizures and is blind. She now requires occupational
therapy, feeding therapy, and 24-hour monitoring. Dr.
Bristol testified that J.M. will likely require long-term,
full-time care for the foreseeable future.
¶15
At the termination hearing, Dr. Jones opined
that J.M.’s injuries occurred within a few days before
her hospital admission and resulted from nonaccidental
trauma. After reviewing the family’s medical history
and J.M.’s birth records, Dr. Jones found no alternative
medical explanation for her injuries. Similarly, Dr. Bristol
testified that J.M.’s injuries were most likely caused by

11a
Appendix A
recent trauma. Dr. Jones added that J.M.’s lack of external
injuries did not rule out abuse.
¶16
Dr. Scheller disagreed and testified that J.M.’s
injuries resulted from a subdural hematoma at birth that
began spontaneously re-bleeding some weeks later, which
in turn caused her retinal hemorrhages. Dr. Scheller
conceded that this occurrence would be “an unusual
complication” and that no other non-traumatic medical
condition could have caused J.M.’s injuries.
¶17
Dr. Jones and Dr. Bristol opined on Dr. Scheller’s
conclusion, testifying that such an occurrence under
the circumstances present with J.M. would be “very,
very rare.” Dr. Jones testified that “children [who]
have spontaneous re-bleeding [also] have some other
complicating factor with their brain.” Dr. Bristol testified
that in her experience as a pediatric neurosurgeon she
had “not seen a spontaneous re-bleed to that degree.”
Dr. Jones opined that J.M.’s presentation and injuries did
not correspond to Dr. Scheller’s theory, particularly the
diffuse nature of J.M.’s retinal hemorrhages, which was
consistent with “massive trauma with acceleration and
deceleration.” Regarding J.M.’s eye injuries, Dr. Jones
stated that:
[T]here had to be [a] significant force that led
to that pattern of retinal hemorrhages. You can
get retinal hemorrhages from many different
causes, but the only times we see [J.M.’s]
pattern of retinal hemorrhages in the pediatric
population is from abusive head trauma, severe

12a
Appendix A
motor vehicle collisions or there’s some case
reports of children who have fallen out of two
or three story windows onto concrete.
Dr. Jones specifically distinguished Dr. Scheller’s theory,
testifying that “when the pressure is high in the brain, you
can get retinal hemorrhages,” but they are typically “in
the . . . most recessed part of the retina . . . surrounding
the optic nerve,” which was “not the same pattern that
[J.M.] had.”
¶18
Throughout the investigation, dependency, and
termination hearings, Mother and Father maintained
that J.M. had suffered no accidents or injuries that would
explain her injuries. At J.M.’s first health checkup (a few
weeks before her traumatic brain injury), the doctor
examining J.M. noted no concerns. Likewise, Mother
and Father maintained that J.M. only began showing
symptoms the evening they took her to the hospital. In
sum, reasonable evidence supports the juvenile court’s
determination that J.M.’s injuries were the result of
nonaccidental trauma.
¶19
Based on its conclusion that J.M.’s injuries were
the result of nonaccidental trauma, the court also found
that Mother or Father, or both, intentionally abused
J.M. or knew or reasonably should have known that the
other parent abused her, “as she was in their sole care
when she suffered life-threatening injuries.” The court
also found that, despite the “timing, extent, mechanics
and presentation of [J.M.’s] injuries,” Mother and Father
continued to deny that abusive conduct occurred, presented

13a
Appendix A
a “united front,” and remained committed to each other
and their relationship. And because neither parent had
“shown a willingness to leave the other to protect the
children from the other parent,” the court concluded that
“both parents have demonstrated their lack of protective
capacities for all of the children, not only [J.M.].”
¶20 Mother and Father have consistently maintained
that they were J.M.’s only caregivers since her birth.
Mother and Father continuously denied J.M. was abused,
even after they were confronted with PCH’s medical
assessments of J.M.’s injuries. Despite strong evidence
that at least one of them caused J.M.’s injuries, Mother
and Father made no attempt to distance themselves from
one another. To the contrary, in the months following the
incident with J.M., Mother and Father deepened their
commitment to one another by marrying. Given this
record, reasonable evidence supports the juvenile court’s
determination that: (1) one or both parents willfully
abused J.M. by causing J.M.’s physical injuries; and (2)
one or both parents failed to protect J.M. after they
knew or reasonably should have known J.M. had been
abused. See Maricopa County Juv. Action Nos. JS-4118/
JD-529, 134 Ariz. 407, 408-09, 656 P.2d 1268 (App. 1982)
(where mother refused to obtain a divorce or otherwise
separate herself from husband who had committed
abuse, her “knowing failure” to protect her children
from abuse by her husband justified termination of her
parental rights); see also Mario G. v. ADES, 227 Ariz.
282, 287-88, ¶¶ 19-25, 257 P.3d 1162 (App. 2011) (finding
a father’s failure to protect one child from abuse justified
termination of his rights to another child); Linda V., 211

14a
Appendix A
Ariz. at 79, ¶ 14 (parents “who permit another person to
abuse or neglect their children” may have their parental
rights terminated). Once DCS established Mother and
Father abused or failed to take steps to protect J.M. after
the abuse occurred, the statutory grounds to terminate
Mother’s and Father’s rights to the other children were
also met. A.R.S. § 8-533(B)(2); Linda V., 211 Ariz. at
79, ¶ 14. Accordingly, reasonable evidence supports the
court’s finding that termination of Mother’s rights to J.M.,
F.M., and M.R., and Father’s rights to J.M. and F.M., was
justified under A.R.S. § 8-533(B)(2).
C. Alma S. v. DCS Requires Courts to Consider the
Connection Between the Prior Abuse of One Child
and the Risk of Future Abuse to the Other Children
During the Best-Interests Inquiry.
¶21
Mother and Father argue insufficient evidence
supports the juvenile court’s finding that there was a
“nexus” between the abuse of J.M. and the risk of abuse
to F.M. and M.R. In the past, this court has expressly held
that termination of parental rights to a child who has not
been the direct target of abuse requires the party seeking
termination of rights to show, at the statutory-grounds
stage, “a constitutional nexus between the prior abuse
and the risk of future abuse to the child at issue.” Seth
M. v. Arienne M., 245 Ariz. 245, 248, ¶ 11, 426 P.3d 1224
(App. 2018) (quoting Tina T. v. DCS, 236 Ariz. 295, 299,
¶ 17, 339 P.3d 1040 (App. 2014)); Mario G., 227 Ariz. at 285,
¶ 16. This court recently revisited the constitutional nexus
requirement, noting that it “first appeared in a footnote
in the Linda V. opinion, although that opinion does not

15a
Appendix A
identify any legal source for such a requirement and it
is not present in the statute itself.” Seth M., 245 Ariz. at
248, ¶ 11 (citing Linda V., 211 Ariz. at 80, ¶ 17, n.3).
¶22 The uncertainty expressed in Seth M. towards
requiring this showing at the statutory-grounds stage
was realized when our supreme court issued its decision in
Alma S. v. DCS. In Alma S., the supreme court held “the
substantive grounds for termination listed in § 8-533(B)
[are synonymous] with parental unfitness,” and once the
juvenile court finds a parent to be unfit, the best-interests
analysis is triggered. 245 Ariz. at 150-51, ¶¶ 9, 12. Alma
S. thus makes clear that, at the statutory-grounds stage,
the juvenile court should only determine whether the
party seeking termination has met its burden of proving a
parent unfit under one of the grounds for termination. See
Alma S., 245 Ariz. at 154, ¶ 32-33 (Bolick, J., concurring
in the result) (“However, the Court today holds that all
that must be proven by clear and convincing evidence is
that the parent engaged in one of the statutory grounds
for termination, which by itself ‘constitute[s] a finding
of parental fitness.’” (alteration in original) (quoting id.
at 150, ¶ 11)). Considerations outside the scope of A.R.S.
§ 8-533(B)(2)—such as whether a connection exists
between a parent’s abuse of one of their children and
the risk of abuse to their other children—are left to the
best-interests inquiry. This conclusion not only comports
with Alma S.’s discussion of the two-step termination
inquiry, but also Linda V.’s original application of a
“nexus” requirement. See Linda V., 211 Ariz. at 80, ¶ 17,
n.3 (addressing the need to demonstrate a nexus between
prior abuse and the risk of future abuse in the court’s
best-interests analysis).

16a
Appendix A
D. Reasonable Evidence Supports the Court’s Finding
that Termination of Mother’s and Father’s Parental
Rights Served the Children’s Best Interests.
¶23 Once the court finds a parent unfit under at least
one statutory ground for termination, “the interests of
the parent and child diverge,” and the court proceeds to
balance the unfit parent’s “interest in the care and custody
of his or her child . . . . against the independent and often
adverse interests of the child in a safe and stable home
life.” Kent K., 210 Ariz. at 286, ¶ 35. “[A] determination of
the child’s best interest must include a finding as to how
the child would benefit from a severance or be harmed by
the continuation of the relationship.” Maricopa County
Juv. Action No. JS-500274, 167 Ariz. 1, 5, 804 P.2d 730
(1990) (emphasis omitted). Courts “must consider the
totality of the circumstances existing at the time of the
severance determination, including the child’s adoptability
and the parent’s rehabilitation.” Alma S., 245 Ariz. at 148,
¶ 1. In cases where termination of a parent’s rights to one
child is predicated on the parent’s abuse of another child,
courts must also consider the connection between that
abuse and the risk of future abuse to the child at issue.
See Seth M., 245 Ariz. at 248, ¶ 11; Mario G., 227 Ariz. at
285, ¶ 16; Linda V., 211 Ariz. at 79-80 ¶¶ 14-15, 17. “When
a current placement meets the child’s needs and the
child’s prospective adoption is otherwise legally possible
and likely, a juvenile court may find that termination of
parental rights, so as to permit adoption, is in the child’s
best interests.” Demetrius L. v. Joshlynn F., 239 Ariz. 1,
4, ¶ 12, 365 P.3d 353 (2016). Finally, “[t]he existence and
effect of a bonded relationship between a biological parent

17a
Appendix A
and a child, although a factor to consider, is not dispositive
in addressing best interests.” Dominique M. v. DCS, 240
Ariz. 96, 98, ¶ 12, 376 P.3d 699 (App. 2016).
¶24 Here, based on its finding that Mother or Father
abused J.M. or that they failed to protect J.M. from abuse,
the juvenile court found that it had “grave concerns about
the parents’ protective capacities in the future.” Mother
and Father argue that the risk of abuse to F.M. and M.R.
is remote because J.M. was a vulnerable infant, unlike
the older children. But the juvenile court rejected this
argument and concluded that by failing to take steps
to protect J.M. from the unidentified abusing parent,
“Mother and Father have demonstrated they cannot or
will not protect their children.” The court specifically
found that:
Although [M.R. and F.M.] are no longer infants,
[they] are young children who are vulnerable.
[M.R.] has already been the victim of child
abuse by Mother in the past. 2 Mother and
Father . . . have not been forthcoming about the
cause of [J.M.’s] injuries.
The court also found that “given the parents’ persistent
denials that any abuse occurred,” both J.M. and her older
siblings remained at risk of future abuse.
2. In 2011, while Mother went shopping, she left M.R., who was
two years old at the time, unsupervised inside her car for 40 minutes.
The temperature outside was 106 degrees. A police officer removed
M.R. from the car before she suffered any serious injury, but Mother
was arrested and subsequently pled guilty to child abuse.

18a
Appendix A
¶25 Reasonable evidence in the record supports these
findings. M.R. was nine years old at the time of the
termination hearing and F.M. was almost three—both still
dependent on Mother and Father to meet their needs. Both
parents’ actions after learning the nature of J.M.’s injuries
demonstrated they could not recognize danger and keep
the children safe. As J.M.’s primary caregivers, Mother
and Father are the only ones in a position to explain how
her injuries occurred. Mother and Father have refused to
acknowledge abuse occurred or that at least one of them
was responsible. Instead, they have remained together,
and neither parent has taken steps to prevent the children
from being returned to the same situation that led to J.M.’s
near-fatal injuries. On this record, we conclude reasonable
evidence supports the court’s finding that the abuse to J.M.
bore a substantial connection to the risk of future abuse
to the other children in Mother’s and Father’s care.
¶26 Moreover, reasonable evidence concerning the
children’s adoptability supports the juvenile court’s bestinterests finding. The case manager testified that F.M. and
M.R. were in a kinship placement that was meeting their
needs and the foster parents wished to adopt them. Due
to J.M.’s special needs, she was in a separate placement
for a medically-fragile child that was providing her the
specialized care she required. Although J.M.’s placement
was not willing to adopt, DCS identified other potential
adoptive placements for her. Considering the children’s
stability in their current placements, and the availability
of adoptive placements, the case manager testified that
termination would provide the children with “a safe,
secure environment, where all of their needs will be

19a
Appendix A
met.” Reasonable evidence supports the court’s finding
that termination was also in the children’s best interests
because of their adoptability.
CONCLUSION
¶27 For the foregoing reasons, we affirm the juvenile
court’s order terminating Mother’s rights to J.M., F.M.,
and M.R. and Father’s rights to J.M. and F.M.
AMY M. WOOD
Clerk of the Court
FILED: AA 12

20a
AppendixOF
B THE SUPERIOR
APPENDIX B — ORDER
COURT OF ARIZONA, MARICOPA COUNTY,
FILED MARCH 23, 2018
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
IN THE MATTER OF:
MARLENE VEGA REY
F1000131
DOB: 8/13/2008
FALY JASMINE MADRID
F1117404
DOB: 3/21/2015
JULIETA MADRID
F1118162
DOB: 3/11/2017
UNDER ADVISEMENT RULING
ORDER ADJUDICATING MARLENE REY
DEPENDENT AS TO SANDRA REY
ORDER ADJUDICATING FALY AND JULIETA
MADRID DEPENDENT AS TO SANDRA REY AND
SERGIO MADRID
ORDER TERMINATING PARENTAL RIGHTS
OF SANDRA REY AS TO MARLENE REY, FALY
MADRID AND JULIETA MADRID

21a
Appendix B
ORDER TERMINATING PARENTAL RIGHTS OF
ROSARIO VEGA AS TO MARLENE REY
ORDER TERMINATING PARENTAL RIGHTS
OF SERGIO MADRID CASTO AS TO FALY AND
JULIETA MADRID
The termination and dependency adjudication
hearings of these matters were conducted on December
5, 2017; December 6, 2017; December 8, 2017; and March
9, 2018. Mother and Mr. Sergio Madrid, father to the
children Faly and Julieta, were present and contested both
matters. Following the trial, the Court took the matters
under advisement.
A parent in a termination case has a duty to appear
at all properly noticed proceedings. Mr. Rosario Vega,
father to the child Marlene, failed to appear and such
failures were without good cause. Regardless of whether
the severance is initiated by motion or petition, the
failure to appear shall be treated as a waiver of rights
and an admission of allegations. Marianne N v. DCS, 243
Ariz. 53, 401 P.3d 1002 (2017). This applies whether the
scheduled proceeding was the adjudication of the motion
or petition, or whether the matter was set for pretrial
conference, status conference or any other properly
noticed proceeding. Adrian E. v. Ariz. Dep‘t of Econ. Sec.,
215 Ariz. 96, 101,14, 158 P.3d 225, 230 (App. 2007).
The Court has reviewed the evidence and testimony
provided, the pleadings filed, the arguments of counsel,
applicable law, and the case history. Based thereon, the

22a
Appendix B
Court makes the following findings of fact and conclusions
of law and enters the following orders.
I.

BACKGROUND
Parties

The minor children are Marlene Vega Rey, born
August 13, 2008; Faly Jasmine Madrid, born March 21,
2015; and Julieta Madrid, born March 11, 2017.
The mother of the children is Sandra Holguin Rey,
aka Sandra Rey Holguin, born December 7, 1977, and she
is hereinafter referred to as “Mother.”
The father of the child Marlene is Rosario Vega,
born January 12, 1985, and he is hereinafter referred
to as “Father Vega.” Paternity has been established via
acknowledgment.
The father of the children Faly and Julieta is Sergio
Madrid Castro, born July 10, 1978, and he is hereinafter
referred to as “Father Madrid.” Paternity for both
children has been established via acknowledgment.
The Department of Child Safety is also a party to
these proceedings. It will hereinafter be referred to as
the “Department” or “DCS.”

23a
Appendix B
Initial Referral and Procedural History
This matter most recently1 came to the attention of
the Department and this Court in May 2017, following the
sudden hospital admission of Julieta Madrid. A petition
regarding Julieta’s older sisters, Marlene and Faly, was
filed by DCS on May 9, 2017. When Julieta was released
from the hospital, DCS filed a petition alleging Julieta
was dependent on May 25, 2017. The allegations in both
petitions regarding Mother and Father Madrid are limited
to abuse of Julieta. The parents were properly served.
Father Vega failed to appear in the dependency matter,
and Marlene was adjudicated dependent as to him on
August 28, 2017.
DCS filed a Petition for Termination of Parent-Child
Relationship regarding all aforementioned parents and.
their respective child(ren) on July 5, 2017. All parents have
been properly served. In the interest of judicial economy,
a joint adjudication hearing on both dependency and
termination matters were held simultaneously. The bulk
of evidence was presented in December 2017, during the
first three days of trial. An additional trial day was added
upon the parties’ request, and the matter was taken under
advisement on March 9, 2018.
Thus, the matters currently pending before this Court
are the dependency petitions as to Mother and Father
1. As will be described infra, a previous dependency case
regarding the child Marlene took place in 2011 and 2012. Marlene
was reunified with Mother in 2012 and the case was dismissed.

24a
Appendix B
Madrid in JD 20586, and the Petition for Termination in
JS 19097 as to all parents. The Court will address those
matters in turn.
II. DEPENDENCY PETITION—JD 20586 (Mother
and Father Madrid only)
Based upon the testimony and evidence received by
the Court in this matter, the Court finds it has jurisdiction
over the subject matter of this dependency case pursuant
to A.R.S. § 8-202. Service of the dependency petition
regarding Marlene and Faly was complete as to both
parents on May 11, 2017, and service of the dependency
petition regarding Julieta was complete as to both parents
on June 1, 2017.
A f inding of dependency requires proof by a
preponderance of the evidence. A.R.S. § 844(C)(1). A
dependent child is one who “has no parent or guardian
willing to exercise or capable of exercising such care or
control.” A.R.S. § 8-201(14)(a)(i).
The sole allegation in both dependency petitions
as to each parent is abuse or failure to protect from
abuse. Specifically, DCS alleges that all three children
are dependent because of the abuse by the parent(s) on
Julieta. A child may be found dependent when a parent
is unwilling or unable to protect the child from abuse,
see Pima Cnty. Juv. Action No. J-77188, 139 Ariz. 389,
392 (App. 1983) (“Effective parental care clearly implies
prevention of sexual as well as other physical abuse.”). The
Court must find that a dependency exists at the time of

25a
Appendix B
the trial, see A.R.S. § 8-201(14)(a)(i) (defining dependent
child as one who “has no parent or guardian willing to
exercise or capable of exercising such care or control”).
See Pima Cnty. Juv. Dependency Action No. 96290, 162
Ariz. 601,604 (App. 1990). However, a dependency finding
is appropriate:
as to parents who presently deny that they are
responsible for past abuse and neglect for the
obvious reason that such denial of responsibility
supports a finding that their children do not
have parents presently willing to or capable of
exercising proper and effective parental care
and control. To hold otherwise would permit
an abusive or neglectful parent to defeat an
allegation of dependency by the mere passage
of time.
Id.
After having the opportunity to assess the credibility of
witnesses and carefully review all the admitted evidence in
this matter, the Court finds that grounds for a dependency
exist as to each parent.
Findings of Fact Regarding Julieta’s Injuries
Mother and Father Madrid testified that Julieta
presented normally until April 24, 2017. Their testimony
indicated Mother was at home with Julieta while Father
worked; Father returned home between six to eight
o’clock in the evening. Mother testified Julieta slept from

26a
Appendix B
5:00 p.m. to 8:00 p.m. At some point in the evening, likely
around 8:45 p.m., according to Father Madrid’s testimony,
Mother breastfed Julieta, who began vomiting. Mother and
Father Madrid testified that, at first, they did not think
much of the vomiting because their other children had
vomited in the past. Julieta vomited again, and Father
eventually went to the store to buy some tea for Julieta.
Father Madrid testified his mother had given him tea
as a child when he was sick. Father Madrid went to the
store shortly before midnight, and Mother called him to
express concern about Julieta’s condition. Father Madrid
returned home, and he and Mother transported Julieta to
an urgent care facility. Julieta’s limbs were becoming stiff.
After waiting at urgent care to be seen by a physician,
the parents were , advised to quickly take Julieta to
Phoenix Children’s Hospital. They did so. At the hospital,
Julieta was assessed and underwent emergency surgery
at 3:45 a.m. on April 25, 2017. Ex. 19, hospital records, at
Bates 1050.
The Court heard from three medical experts in
this case. While the nature of Julieta’s condition when
she presented to the emergency room in April 2017 was
uncontroverted at trial, the cause of her condition was
contested.
Julieta, who was less than two months old when she
was rushed to Phoenix Children’s Hospital on April 25,
2017, suffered from a number of significant injuries. First,
she suffered from a large, subdural hematoma on one side
of her head and another, smaller one on the right side of
her head. She had significant midline shift of the brain,

27a
Appendix B
meaning pressure had caused the brain to move out of
its normal position. She required emergency surgery
to remove the blood clot that was causing the pressure.
During surgery, the child was noted to have bled profusely.
Julieta had retinal hemorrhaging that was severe — she
had bleeding present in every layer of her eyes and all
over each eye. Julieta had no external injuries, such as
bruising, lacerations or abrasions.
The Court heard differing expert opinions on the
etiology of Julieta’s injuries. Two of the physicians
who treated Julieta in April 2017 at Phoenix Children’s
Hospital were called as witnesses by the Department
of Child Safety. The treating physicians testified that
the injuries suffered by Julieta were non-accidental
trauma that had recently been inflicted. The retinal
hemorrhaging was indicative of “massive trauma” caused
by acceleration/deceleration with “significant force,”
according to Dr. Melissa Jones’ testimony. Dr. Ruth
Bristol, the neurosurgeon who performed the emergency
surgery and removed the blood clot from Julieta’s head,
opined that the blood clot was only one or two days old.
She testified that the clot had not been present since birth.
She further opined that the blood clot had been causing
Julieta’s symptoms, including loss of consciousness, loss
of appetite, and vomiting. Dr. Bristol testified that she
could not definitively opine that there was more than one
injury to Julieta. Importantly, the doctors opined that the
injuries were of a recent and sudden nature.
Mother and Father Madrid retained an expert, Dr.
Scheller, who testified that Julieta had suffered a scalp

28a
Appendix B
injury at birth, resulting in a subdural hematoma, and
Julieta’s injuries were complications of that original
hematoma. The basis for his opinion regarding the
hematoma was his review of April 2017 CT scans on
Julieta’s brain, which showed the presence of “old blood”
and “new blood.” He opined that the “old blood” was
between three and six weeks old; therefore, by his own
testimony, it is possible Julieta’s “old blood” was not from
her birth. Dr. Scheller conceded during his testimony
that there was no other medical condition that could have
caused the injuries. He opined that the severe retinal
hemorrhaging to Julieta’s eyes was caused by blood from
the hematoma traveling through the circulatory system.
He further opined that external injuries would have been
present if the child had been abused.
After carefully listening to the medical evidence
and expert opinions in this case, the Court rejects Dr.
Scheller’s opinion. Of critical significance to this Court
are the extent, severity, and location of Julieta’s retinal
hemorrhaging. Julieta’s treating doctors testified that
a subdural hematoma could not have caused the retinal
hemorrhaging observed in Julieta, because the location
of the hemorrhaging and the extent of the hemorrhaging
were not consistent with hemorrhaging caused by a
subdural hematoma. Juliet’s hemorrhaging was not
confined to the back of the eye, as one would expect as a
result of a subdural hematoma. Rather, the hemorrhaging
was present in every layer of the eye, and around the entire
eye. The Court heard there were so many hemorrhages
that the ophthalmologist was unable to count them.
Also, the retinal hemorrhaging quickly resolved, which

29a
Appendix B
indicated the hemorrhaging had recently occurred.
Those injuries were not caused by a hematoma traveling
down the circulatory system, as Dr. Scheller suggested;
those injuries were caused by abuse to Julieta. Julieta’s
treating physicians also credibly testified that subdural
hematomas at birth, while not usual, are not of the size
found in Julieta. Dr. Scheller conceded that Julieta had
suffered trauma to her optic nerve; he opined it was due to
intracranial pressure, but he conceded it was also possible
the nerve damage was due to abuse. The Court finds
the presentation and characteristics of Julieta’s internal
injuries were consistent with abusive head trauma, not a
subdural hematoma as Dr. Scheller opined.
The Court further rejects Dr. Scheller’s testimony that
Julieta would have had to have suffered external injuries
if she were abused. Dr. Jones testified that abusive head
trauma does not necessarily result in external injuries.
For example, if a child is shaken, she may not present with
external injuries, but abusive head trauma may occur.
Dr. Jones testified that the absence of external injuries
to Julieta does not affect her diagnosis of abusive head
trauma. The Court agrees. Dr. Jones further testified
that the parents provided no plausible explanation for
Julieta’s injuries, and medical conditions were ruled out.
Dr. Scheller conceded no other medical condition would
have caused the child’s injuries.
Finally, the Court rejects Dr. Scheller’s testimony
that the child’s “scalp injury” at birth, caput succedaneum,
caused the child’s injuries by leading to a subdural
hematoma. As Dr. Scheller conceded, caput is a common

30a
Appendix B
occurrence in vaginal deliveries it normally resolves
shortly after birth. There is no evidence that Julieta’s
caput did not resolve; the child presented normally at
regular pediatric checks following birth. And, as described
above, Dr. Scheller’s timeframe for the blood on the child’s
CT scan was “between” three and six weeks. According
to Dr. Scheller’s testimony, it is possible the bleeding he
claims was caused during birth trauma did not present
until three weeks later, which would belie his theory that
the hematoma was present at birth. Dr. Scheller also
conceded that the “re-bleed” he claims resulted in Julieta’s
emergency admission to the hospital caused a significant
amount of bleeding. This difference is important, because
he testified that a small amount of ‘’jostling” could have
caused the re-bleed; such a small amount of movement
would not have caused Julieta’s profuse bleeding. The
Court finds a small movement would not account for the
baby’s injuries and symptoms she exhibited on April 24,
2017.
In addition to carefully reviewing the evidence outlined
supra, the Court notes that Mother has previously been
convicted of child abuse. Ex. 8, Mother’s Criminal Case
Records, at Bates 038-039. The conviction stemmed
from an incident in 2011 where Mother left Marlene,
who was two years old at the time, in Mother’s car while
Mother shopped. Id, Ex. 7, Tolleson Police Department
Report. The incident occurred in July, and the outdoor
temperature was approximately 106 degrees. Ex. 7 at
3-4. Mother told police that she decided to leave Marlene
in the car because she did not believe she would be in
the store very long, even though Mother had previously

31a
Appendix B
heard of children dying in hot cars. Id at 4-5. Mother told
police it was easier to leave Marlene in the car than wake
the child up and bring her into the store. Id. at 4. Mother
estimated she had been in the store for twenty minutes.
Id. at 4. Surveillance footage showed she had been inside
for 41 minutes, Id. at 5. Mother told police that she was at
the store to buy a toy and school uniforms; surveillance
footage showed Mother was at the cosmetics counter and
in the bathroom. Id. at 4-5. Mother’s conviction was for
a class 6 undesignated felony, and she was sentenced to
30 days’ incarceration and one year on probation. Ex. 8
at Bates 038-39. Mother was successfully discharged
from probation in 2012, and her felony was designated as
a misdemeanor. Id. at Bates 042-43. In addition, Mother
went through a dependency case with Marlene, which
Mother successfully completed.
At trial, Mother testified that nothing out of the
ordinary had occurred with Julieta before Julieta became
symptomatic on April 24, 2017, other than some sleepiness
at feeding time.2 The Court had the opportunity to observe
Mother throughout these proceedings, and Mother
presented with a completely flat affect at all times. On the
stand, Mother’s affect remained flat, even when describing
the harrowing incidents with Marlene in 2011 and Julieta
in 2017. During his testimony, Father Madrid did not
similarly present; however, his testimony was troubling
in other ways. Although he testified that Mother’s 2011
conviction for child abuse of Marlene concerned him, he
2. Mother admitted that she did not raise any concerns
regarding sleep with Julieta’s pediatrician. She testified Julieta’s
pediatrician noted Julieta was in good health during well checks.

32a
Appendix B
made clear that he remains in a committed relationship
with Mother. He testified that he had asked Mother if
something had happened to Julieta, and Mother responded
in the negative. He denied shaking Julieta, but he and
Mother were the child’s only caregivers in the timeframe
in which Julieta suffered her injuries. Father Madrid
agreed in his testimony that whatever happened to Julieta
had happened suddenly. He provided no explanation for
the child’s injuries and denied engaging in any abusive
conduct. Mother and Father Madrid’s testimony and
conduct in the courtroom, which this Court had the chance
to carefully observe and consider, demonstrated to this
Court that the parents are a “united front” and committed
to each other. Their testimony on key issues, such as what
happened to Julieta, was simply not credible.
After carefully considering the evidence, the Court
finds the only plausible explanation for Julieta’s injuries
is that she suffered non-accidental trauma. The parents
testified they were her only caregivers. They testified
thatno abusive conduct occurred. They denied the child
was dropped or any other accidental trauma occurred.
Mother and Father Madrid’s testimony, however, was
not credible. Their testimony that Julieta was not abused
simply does not conform to the medical evidence.Julieta
was abused while in the parents’ exclusive care. Each
parent either abused Julieta, knew that Julieta had
been abused, or reasonably should have known that
the other parent had abused Julieta due to the timing,
extent, mechanics and presentation of Julieta’s injuries.
Furthermore, Mother and Father Madrid have remained
in their relationship after Julieta was abused. Neither

33a
Appendix B
has shown a willingness to leave the other to protect the
children from the other parent. Thus, both parents have
demonstrated their lack of protective capacities for all
of the children, not only Julieta. Children in Mother and
Father Madrid’s care are at risk for abuse. 3
3. The Court notes that both parents underwent psychological
evaluations, in which the psychologist was asked to opine on the risk
to children in each parent’s care. See Ex. 5, Father’s Psychological
Evaluation, and Ex. 6, Mother’s Psychological Evaluation. For the
reasons below, the Court cannot rely on those evaluations.
The psychologist opined that a child would not be at risk in Father
Madrid’s care. Ex. 5 at Bates 013. However, the psychologist’s opinion
was apparently based on Father Madrid’s “lack of history of placing
children at risk to be neglected, nor neglecting any child.” See id.
The psychologist went on to note that Father Madrid reported that
he was not present when Julieta was taken to the hospital. Id. Father
testified he did not know why the psychologist would have stated
Father Madrid reported he was not present. As noted in this Order,
Father was indeed present when the child became symptomatic.
Finally, the psychologist noted “if anything happened to [Father
Madrid’s] daughter, it is possible that it may have occurred under his
and [Mother’s] care.” Id. The psychologist did not have the benefit of
the medical testimony presented to this Court. The Court has found
that something did indeed happen to Julieta — she was abused in
the exclusive care of Mother and Father Madrid. Consequently, the
Court does not find Father Madrid’s psychological evaluation to
carry any significant weight.
When the same psychologist evaluated Mother, he opined that
a child would not be at risk in Mother’s care. Ex. 6 at Bates 014.
Although he acknowledged Mother’s 2011 incident with Marlene,
the psychologist noted Mother’s denials of harming Julieta and her
consistency in doing so. Id. Mother reported to the psychologist that
she was caring for Julieta but she did not know how Julieta sustained
her injuries. Id. She denied harming Julieta. Id. Again, the Court

34a
Appendix B
Conclusion as to Dependency
For the foregoing reasons, the Court adjudicates the
three children dependent as to Mother and the children
Faly and Julieta dependent as to Father Madrid.
Regarding disposition, the permanency plan is
severance and adoption; the Court next addresses the
pending termination petition.
III. TERMINATION PETITION — JS 18864 (all parents)
Jurisdiction
The children are and have been physically present
within the State of Arizona through all times relevant to
these proceedings. All requirements of Title 8, Chapter
5, Article 2 have been met. The Court finds that it has
subject matter jurisdiction in this case. A.R.S. § 8-532(A).
This matter is not subject to the Indian Child Welfare Act.
Generally Applicable Law
Parental rights are fundamental, but they are not
absolute or inviolate. Dominique M. v. Dep’t of Child
Safety, 240 Ariz. 96,7, 376 P.3d 699, 700 (App. 2016). As
a matter of law, termination of parental rights may be
does not find the psychologist’s conclusions to carry any significant
weight. The psychologist did not hear the evidence before this Court.
Mother’s claims that Julieta was not abused, while consistent, are
untrue.

35a
Appendix B
ordered only if grounds for termination under A.R.S.
Section 8-533 are established by clear and convincing
evidence. This heightened standard requires a showing
that the grounds are highly probable or reasonably
certain. Kent K. v Bobby M. 210 Ariz. 279, 284-85, ¶ 25,
110 P.3d 1013, 1018-19 (2005).
If the grounds are found to exist, the Court must also
find that the termination of parental rights would be in the
best interests of the child. The burden of proof to establish
that termination is in the best interests of the child is by
a preponderance of evidence. Kent K., 210 Ariz. at 288,
110 P.3d at 1022. In making the best interests finding,
the Court must determine whether the child would either
benefit from the severance or be harmed by maintaining
the parental relationship. Maricopa Cty. Juv. Action No.
JS-500274, 167 Ariz. 1, 6-7, 804 P.2d 730, 735-36 (1990);
Ariz. Dep’t of Econ. Sec. v. Oscar O., 209 Ariz. 332, 334,
¶ 6, 100 P.3d 943, 945 (App. 2004).
Grounds for Termination and Findings
As provided in A.R.S. § 8-533(B), termination of
parental rights requires establishment of any one of the
enumerated grounds provided by statute. The Department
proceeded under specific sections of the statute. Those
grounds and the Court’s findings are as follows:
Abandonment (A.R.S.. § 8-533(B)(1)) — FATHER VEGA
“Abandonment” is defined in A.R.S. § 8-531(A)(1).
This statute provides that:

36a
Appendix B
“Abandonment” means the failure of a parent
to provide reasonable support and to maintain
regular contact with the child, including
providing normal supervision. Abandonment
includes a judicial finding that a parent
has made only minimal efforts to support
and communicate with the child. Failure to
maintain a normal parental relationship with
the child without just cause for a period of six
months constitutes prima facie evidence of
abandonment. (Emphasis added.)
There is no bright line formula developed to determine
whether a parent abandoned an existing relationship or
failed to establish a relationship with a child. Matter of
Pima County Juv. Severance Action S-114487, 179 Ariz.
86, 876 P.2d 1121 (1994). It is determined by conduct of the
parent, not by the subjective intent of the parent. Michael
J. v. Ariz. Dep’t of Econ. Sec., 196 Ariz. 246, 995 P.2d 682
(2000). A parent must act persistently to establish or
maintain the relationship and must “vigorously assert...
legal rights to the extent necessary.” Id. at 250, 686.
In assessing the actions of the parent, the Court should
consider factors such as whether a parent has provided
‘reasonable support,’ ‘maintain[ed] regular contact with
the child and provided ‘normal supervision.”’ Kenneth B.
v. Tina B., 226 Ariz. 33, ¶ 18, 243 P.3d 636 (App. 2010). In
this context, the Court must also consider “whether the
parent has taken steps to establish and strengthen the
emotional bonds linking him or her with the child.” Id.
at 37, 640. Where “only minimal efforts to support and

37a
Appendix B
communicate with the child” are made, the Court may
conclude the child has been abandoned. Id.
In this matter, the evidence establishes that Father
Vega has not had contact with Marlene since this case
began in May 2017. He has sent Marlene no cards, gifts,
or letters in that time period. Likewise, he has provided
no support to Marlene since May 2017. The case manager
credibly testified that she was unaware of Father Vega
having made any efforts, even before this case began,
to parent the child. He has failed to make even minimal
efforts to establish or maintain a normal parent-child
relationship with Marlene.
The Department has presented a prima facie case
of abandonment, demonstrating that Father Vega failed
to maintain a normal parent relationship for a period of
greater than six months without just cause. This showing
by the Department has not been rebutted by Father Vega.
Based upon the foregoing, Father Vega has abandoned
the child. The Department has met its burden of proof as
to this ground for termination against Father Vega.
Abuse (A.R.S.§ 8-533(B)(2)) — MOTHER AND
FATHER MADRID
Termination may be ordered when it is found that a
parent has willfully abused a child or failed to protect
a child from abuse. The abuse contemplated includes
“serious physical or emotional injury or situations in
which the parent knew or reasonably should have known

38a
Appendix B
that a person was abusing ... a child,” but the abuse need
not be “serious.” E.R. v. Department of Child Safety, 237
Ariz. 56, 59, 344 P.3d 842, 845 (App. 2015). Rather, the
Court need only find that the statutory definition of abuse
is shown. Id. That definition, which is found in A.R.S.
§ 8-201(2), is: “the infliction or allowing of physical injury,
impairment of bodily function or disfigurement or the
infliction of or allowing another person to cause serious
emotional damage.” No diagnosis by a medical doctor
or psychologist is required in order to demonstrate this
ground. E.R., 237 Ariz. at 59, 344 P.3d at 845.
There need not be a showing that each child was
abused; rather, such a finding as to any of the children
could formulate a basis to terminate the rights even as
to the other children for whom there is no evidence of
abuse. Linda V. v. Ariz. Dep’t of Econ. Sec., 211 Ariz. 76
at 79, 117 P.3d 795 (2005). To support termination on this
basis, there must be sufficient evidence showing a nexus
between the abuse of another child and the risk of such
abuse to the children at issue. Id. at 80.
The Court incorporates by reference its findings of
fact made in Section II of this Order, supra. The Court
specifically finds that the medical records and testimony
provided in this matter demonstrate Julieta suffered
from non-accidental trauma. Mother and Father Madrid
testified that the child had not been abused in their care,
but that simply cannot be true in light of the medical
evidence. The Court did not find their testimony on this
critical point to be credible. Both parents testified they
were the child’s only caregivers, and they testified they

39a
Appendix B
were not the cause of and were unaware of the cause of
Julieta’s injuries. As the child’s only caregivers, they
should be able to identify the child’s abuser. Circumstantial
evidence establishes that Mother or Father Madrid, or
both, intentionally abused Julieta, causing serious injuries.
Mother or Father Madrid, or both, knew or reasonably
should have known that the other abused Julieta, as she
was in their sole care when she suffered life-threatening
injuries.
The Court finds a significant nexus between the
abuse of Julieta and the risk of abuse to Julieta’s siblings.
Julieta was abused while in Mother and Father Madrid’s
home, in their exclusive care. As a result of the abuse she
suffered, Julieta requires a high level of medical care and
around-the-clock monitoring. She has been diagnosed with
cerebral palsy. She is blind. She has four to five seizures
a day, and more when she sleeps. She is undergoing a
significant regimen of occupational therapies to assist her,
and she will require specialized therapies for eating. The
Court has grave concerns about the parents’ protective
capacities in the future. Although they are no longer
infants, Faly and Marlene are young children who are
vulnerable. Marlene has already been the victim of child
abuse by Mother in the past. Mother and Father Madrid
have not been forthcoming about the cause of Julieta’s
injuries. Just as Mother and Father Madrid’s denials
regarding the abuse suffered by Julieta were not credible,
Father Madrid and Mother’s testimony that they would
not harm their other children lacked credibility. After
carefully observing the parents, the Court did not find
Mother and Father Madrid’s assurances that they would

40a
Appendix B
keep all their children safe to be credible. The Court
agrees with the testimony of the DCS case manager that
Faly and Marlene are at risk for abuse by Mother and
Father Madrid.
Based upon the foregoing, the Court finds that the
Department has met its burden of proof as to this ground
for termination against Mother and Father Madrid.
Best Interests
The Court has found that a statutory ground has been
met for termination of parental rights. Parental rights
may not be terminated, however, unless the Court also
finds that termination would be in the best interests of
the children. A.R.S. § 8-533(A). See also In re Appeal in
Maricopa Cty. Juv. Action No. JS-500274, 167 Ariz. 1, 4,
804 P.2d 730, 733 (1990). The burden of proof for a best
interest determination is preponderance of the evidence.
Bennigno R. v. Ariz. Dep’t of Econ. Sec., 233 Ariz. 345,
350, ¶ 23, 312 P.3d 861, 866 (App. 2013).
To establish that severance of a parent’s rights would
be in the children’s best interest, “the court must find
either that the child[ren] will benefit from termination of
the relationship or that the child[ren] would be harmed
by continuation of the parental relationship.” Mario G. v.
Ariz. Dep’t of Econ. Sec., 227 Ariz. 282, 288, ¶ 26, 257 P.3d
1162, 1168 (App. 2011) (quoting James S. v. Ariz. Dep’t of
Econ. Sec., 193 Ariz. 351, 356, ¶ 18, 972 P.2d 684, 689 (App.
1998)). The existence of a bonded relationship between
the parents and the children does not preclude a finding

41a
Appendix B
that severance is in the best interests of the children.
Dominique M v. Dep’t of Child Safety, 240 Ariz. 96, ¶ 12,
376 P.3d 699, 701 (App. 2016).
To determine whether the children would benefit,
relevant factors considered by this Court consider include
‘’whether the current placement is meeting the child[ren]’s
needs.” Bennigno R., 233 Ariz. at 350, ¶ 23, 312 P.3d at 866
(citing Maricopa Cty. Juv. Action No. JS-8490, 179 Ariz.
102, 107, 876 P.2d 1137, 1142 (1994)). The Court should also
consider whether there is an adoption plan in place and
even if the children are adoptable. Mary Lou C., 207 Ariz.
at 50, ¶ 19, 83 P.3d at 50 (citing JS-500274, 167 Ariz. at 6,
804 P.2d at 735, and Maricopa Cty. Juv. Action No. JS501904, 180 Ariz. at 352, 884 P.2d at 238, respectively). The
Department must only show the children are adoptable;
a specific adoption plan is not required. JS-501904, 180
Ariz. at 352, 884 P.2d at 238. Here, the Court finds from
the evidence presented that if the current case plan for
adoption cannot for any reason move forward, the children
are adoptable.
The children Marlene and Faly are placed together
in a kinship placement, with whom they have a significant
relationship and bond. The placement is adoptive and is
meeting all of the girls’ needs. It is the least restrictive
placement for Marlene and Faly.
Due to the severity of her medical condition and extent
of her needs, Julieta is not placed with a member of her
extended family or with her siblings. Rather, Julieta is
placed in a licensed foster home that is specially trained

42a
Appendix B
to care for medically fragile children. Her placement is
not adoptive. At trial, DCS presented testimony indicating
two possible adoptive placements are being explored for
Julieta. First, Mother and Father Madrid identified a
family friend; this friend would need to complete classes
for caring for a medically fragile child to be considered.
Second, a licensed foster home that has provided respite
care to Julieta’s placement has expressed interest in
adopting Julieta. In accordance with A.R.S. § 8-538(C),
the Court finds that placement with a member of the
children’s extended family is not feasible at this time,
given the need for education regarding medically fragile
children. If the potential family placement completes
the classes, the option would be viable. The DCS case
manager testified that Julieta is an otherwise adoptable
child, even with her medical needs; the Court found that
testimony credible. Given Julieta’s extensive needs and the
above facts, her current placement is the least restrictive
placement. The current placement is meeting Julieta’s
needs, including her many special needs.
The Court finds that severance of parental rights
will benefit the children, because they need a safe home
in which their parents will protect them from abuse. As
detailed, supra, Mother and Father have demonstrated
they cannot or will not protect their children. Further,
the Court finds that the children would suffer a detriment
if parental rights remained intact, because the children
would be at very serious risk for further abuse. Julieta
nearly died due to the abuse she suffered in her parents’
care. She and her siblings remain at risk, given the
parents’ persistent denials that any abuse occurred.

43a
Appendix B
Based thereon, the Court finds that the Department
has proven by a preponderance of the evidence that it
would be in the minor children’s best interest to have
Mother and Father’s parental rights terminated.
Final Order
Based upon the foregoing,
IT IS ORDERED granting DCS’s Out of Home
Dependency Petition, filed May 9, 2017, regarding Faly
Madrid and Marlene Rey, and DCS’s Out of Home
Dependency Petition, filed May 25, 2017, regarding Julieta
Madrid (JD 33645). The minor children Marlene Vega
Rey, born August 13, 2008, Faly Jasmine Madrid, born
March 21, 2015, and Julieta Madrid, born March 11, 2017,
are adjudicated dependent as to Mother, Sandra Holguin
Rey, aka Sandra Rey Holguin, born December 7, 1977. The
minor children Faly Jasmine Madrid, born March 21, 2015,
and Julieta Madrid, born March 11, 2017, are adjudicated
dependent as to Father, Sergio Madrid Castro, born July
10, 1978. The case plan is severance and adoption.
IT IS ORDERED granting the Petition for Termination
of Parent-Child Relationship filed by DCS on July 5, 2017.
IT IS FURTHER ORDERED terminating the
parent-child relationship between Mother, Sandra
Holguin Rey, aka Sandra Rey Holguin, born December
7, 1977, and the minor children, Marlene Vega Rey, born
August 13, 2008, Faly Jasmine Madrid, born March 21,
2015, and Julieta Madrid, born March 11, 2017.

44a
Appendix B
IT IS FURTHER ORDERED terminating the
parent-child relationship between Father, Rosario Vega,
born January 12, 1985, and the minor child, Marlene Vega
Rey, born August 13, 2008.
IT IS FURTHER ORDERED terminating the
parent-child relationship between Father, Sergio Madrid
Castro, and the minor children, Faly Jasmine Madrid,
born March 21, 2015, and Julieta Madrid, born March
11, 2017.
IT IS FURTHER ORDERED vesting the support
obligation for the child on the Department of Child Safety,
in accordance with A.R.S. § 8-538(D). It is noted that this
order does not terminate the right of inheritance for the
child and the obligation for support from the parents,
which are terminated only upon a final order of adoption.
A.R.S. § 8-539.
Appellate Rights/Withdrawal of Counsel
This is intended to be a final order of the Court. The
parties are advised that an appeal may be taken to the
Arizona Court of Appeals (ARPJC 103-108). A Notice
of Appeal must be filed with the Clerk of the Maricopa
County Superior Court no later than 15 days after this
final order is filed with the Clerk of the Court. Counsel
for any party affected by this ruling shall ensure that the
party is informed of this ruling, is advised as to appeal
rights and obtains authorization from the party to file the
Notice of Appeal, if elected.

45a
Appendix B
Upon expiration of the appeal time, counsel for
Mother and Father Madrid are withdrawn from further
representation and relieved of any further responsibility.
March 20, 2018
DATE

/s/				
HONORABLE
ALISON S. BACHUS

46a
AppendixOF
C THE SUPREME
APPENDIX C — ORDER
COURT OF THE STATE OF ARIZONA,
DATED AUGUST 28, 2019
SUPREME COURT
STATE OF ARIZONA
August 28, 2019
ROBERT BRUTINEL
Chief Justice
JANET JOHNSON
Clerk of the Court
RE: SANDRA R./SERGIO C.
v
DCS/M.R./F.M./J.M.
Arizona Supreme Court No. CV-19-0057-PR
Court of Appeals, Division One No. 1 CA-JV 18-0147
Maricopa County Superior Court No. JD20586
Maricopa County Superior Court No. JS19097
GREETINGS:
The following action was taken by the Supreme Court of
the State of Arizona on August 27, 2019, in regard to the
above-referenced cause:

47a
Appendix C
ORDERED: Mother’s Petition for Review = GRANTED
as to Issue #1 only.
FURTHER ORDERED: Appellant Sergio C.’s Petition
for Review = GRANTED as to Issue #2 only as
rephrased: Does it violate due process to make the
nexus finding in the best-interests inquiry?
FURTHER ORDERED: The case shall be set for oral
argument.
FU RT H ER ORDERED: The pa r ties may f ile
simultaneous supplemental briefs, not to exceed 20
pages in length, no later than 20 days from the date of
this Court’s Minute Letter. Any amicus briefs are due
on or before September 23, 2019, and any responses to
amicus briefs are due on or before September 30, 2019.
Any amicus briefs or responses may not exceed 20 pages
in length.
Chief Justice Brutinel and Justice Beene did not
participate in the determination of this matter.
Filing of a supplemental brief is permissive rather than
mandatory. This order should not be construed as an
invitation to repeat the contents of the Petition for Review,
the Response, or any Reply. Lack of a supplemental brief
shall not be considered an admission that the position of
the opposing party or parties should prevail.
Counsel shall be advised of the date and time of oral
argument at such time as the hearing date is determined.

48a
Appendix C
The Clerk of the Court of Appeals, Division One, Phoenix,
shall forward the remaining record to the Clerk of the
Supreme Court.
Janet Johnson, Clerk
TO:
John L Popilek
H. Clark Jones
Brunn W Roysden III
Autumn Spritzer
Lindsey H Richardson
Amy M Wood
Hon. Janet E Barton
Hon. Alison Bachus
Hon Jeff Fine

49a
Appendix
D
APPENDIX
D — RELEVANT
STATUTORY PROVISIONS
A.R.S. § 8-533
§ 8-533. Petition; who may file; grounds
A. Any person or agency that has a legitimate interest
in the welfare of a child, including, but not limited to, a
relative, a foster parent, a physician, the department or a
private licensed child welfare agency, may file a petition for
the termination of the parent-child relationship alleging
grounds contained in subsection B of this section.
B. Evidence sufficient to justify the termination of the
parent-child relationship shall include any one of the
following, and in considering any of the following grounds,
the court shall also consider the best interests of the child:
1. That the parent has abandoned the child.
2. That the parent has neglected or wilfully abused a
child. This abuse includes serious physical or emotional
injury or situations in which the parent knew or
reasonably should have known that a person was
abusing or neglecting a child.
3. That the parent is unable to discharge parental
responsibilities because of mental illness, mental
deficiency or a history of chronic abuse of dangerous
drugs, controlled substances or alcohol and there are
reasonable grounds to believe that the condition will
continue for a prolonged indeterminate period.

50a
Appendix D
4. That the parent is deprived of civil liberties due
to the conviction of a felony if the felony of which that
parent was convicted is of such nature as to prove the
unfitness of that parent to have future custody and
control of the child, including murder of another child
of the parent, manslaughter of another child of the
parent or aiding or abetting or attempting, conspiring
or soliciting to commit murder or manslaughter of
another child of the parent, or if the sentence of that
parent is of such length that the child will be deprived
of a normal home for a period of years.
5. That the potential father failed to file a paternity
action within thirty days of completion of service of
notice as prescribed in § 8-106, subsection G.
6. That the putative father failed to file a notice of
claim of paternity as prescribed in § 8-106.01.
7. That the parents have relinquished their rights to a
child to an agency or have consented to the adoption.
8. That the child is being cared for in an out-of-home
placement under the supervision of the juvenile court,
the division or a licensed child welfare agency, that the
agency responsible for the care of the child has made
a diligent effort to provide appropriate reunification
services and that one of the following circumstances
exists:
(a) The child has been in an out-of-home placement
for a cumulative total period of nine months

51a
Appendix D
or longer pursuant to court order or voluntary
placement pursuant to § 8-806 and the parent
has substantially neglected or wilfully refused to
remedy the circumstances that cause the child to
be in an out-of-home placement.
(b) The child who is under three years of age has
been in an out-of-home placement for a cumulative
total period of six months or longer pursuant
to court order and the parent has substantially
neglected or wilfully refused to remedy the
circumstances that cause the child to be in an outof-home placement, including refusal to participate
in reunification services offered by the department.
(c) The child has been in an out-of-home placement
for a cumulative total period of fifteen months
or longer pursuant to court order or voluntary
placement pursuant to § 8-806, the parent has been
unable to remedy the circumstances that cause the
child to be in an out-of-home placement and there is
a substantial likelihood that the parent will not be
capable of exercising proper and effective parental
care and control in the near future.
9. That the identity of the parent is unknown and
continues to be unknown following three months of
diligent efforts to identify and locate the parent.
10. That the parent has had parental rights to another
child terminated within the preceding two years for
the same cause and is currently unable to discharge

52a
Appendix D
parental responsibilities due to the same cause.
11. That all of the following are true:
(a) The child was cared for in an out-of-home
placement pursuant to court order.
(b) The agency responsible for the care of the
child made diligent efforts to provide appropriate
reunification services.
(c) The child, pursuant to court order, was returned
to the legal custody of the parent from whom the
child had been removed.
(d) Within eighteen months after the child was
returned, pursuant to court order, the child was
removed from that parent’s legal custody, the child
is being cared for in an out-of-home placement
under the supervision of the juvenile court, the
division or a licensed child welfare agency and the
parent is currently unable to discharge parental
responsibilities.
C. Evidence considered by the court pursuant to
subsection B of this section shall include any substantiated
allegations of abuse or neglect committed in another
jurisdiction.
D. In considering the grounds for termination prescribed
in subsection B, paragraph 8 or 11 of this section, the court
shall consider the availability of reunification services to

53a
Appendix D
the parent and the participation of the parent in these
services.
E. In considering the grounds for termination prescribed
in subsection B, paragraph 8 of this section, the court
shall not consider the first sixty days of the initial outof-home placement pursuant to § 8-806 in the cumulative
total period.
F. The failure of an alleged parent who is not the child’s
legal parent to take a test requested by the department
or ordered by the court to determine if the person is
the child’s natural parent is prima facie evidence of
abandonment unless good cause is shown by the alleged
parent for that failure.

